<html>
<title> - THE FIRST TEE AND SCHOOLS: WORKING TO BUILD CHARACTER EDUCATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       THE FIRST TEE AND SCHOOLS:
                  WORKING TO BUILD CHARACTER EDUCATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             June 28, 2006

                               __________

                           Serial No. 109-45

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-433                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 28, 2006....................................     1
Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Chairman, Committee on 
      Education and the Workforce................................     1
        Prepared statement of....................................     3
    Norwood, Hon. Charlie, a Representative in Congress from the 
      State of Georgia, prepared statement of....................    42
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California........................................     4
        H. Res. 735..............................................     5

Statement of Witnesses:
    Aldredge, Sharon D., principal, Woodley Hills Elementary 
      School.....................................................    17
        Prepared statement of....................................    19
    Hogshead-Makar, Nancy, professor, Florida Coastal School of 
      Law, former president of the Women's Sports Foundation, 
      Olympic champion...........................................    21
        Prepared statement of....................................    24
    Nicklaus, Jack, professional golfer..........................     8
        Prepared statement of....................................    10
    Weiss, Dr. Maureen R., professor, Curry School of Education, 
      University of Virginia.....................................    10
        Prepared statement of....................................    12


    THE FIRST TEE AND SCHOOLS: WORKING TO BUILD CHARACTER EDUCATION

                              ----------                              


                        Wednesday, June 28, 2006

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10 a.m., in room 
2175, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon [chairman of the committee] presiding.
    Present: Representatives McKeon, Castle, Ehlers, Tiberi, 
Osborne, Kline, Inglis, Price, Fortuno, Foxx, Kuhl, Kildee, 
Woolsey, Tierney, Kind, Kucinich, Holt, McCollum, and Bishop.
    Staff Present: Kevin Frank, Coalitions Director for 
Workforce Policy; Ray Grangoff, Legislative Assistant; Jessica 
Gross, Press Assistant; Richard Hoar, Professional Staff 
Member; Lindsey Mask, Press Secretary; Susan Ross, Director of 
Education and Human Resources Policy; Deborah L. Samantar, 
Committee Clerk/Intern Coordinator; Brad Thomas, Professional 
Staff Member; Denise Forte, Minority Legislative Associate/
Education; Lauren Gibbs, Legislative Associate/Education; Lloyd 
Horwich, Minority Legislative Associate/Education; Tom Kiley, 
Minority Communications Director; Joe Novotny, Minority 
Legislative Assistant/Education; and Mark Zuckerman, Minority 
Staff Director/General Counsel.
    Chairman McKeon. The Committee on Education and the 
Workforce will come to order. We are holding this hearing today 
to hear testimony on the First Tee in schools working to build 
character education. With that, I ask for unanimous consent 
that the hearing record remain open 14 days to allow members' 
statements and other extraneous information to be submitted in 
the official hearing record.
    Without objection, so ordered.
    Good morning. A little special day here for us today. We 
don't normally have someone of Mr. Nicklaus' stature here with 
us, and you can see it attracts a pretty good audience. Thank 
you for being here.
    I want to thank my colleagues on the committee for joining 
me on this unique and important hearing. I welcome each of our 
witnesses and applaud them for the work they do to build 
character and education in our Nation's youth. I extend a 
special welcome back to Mr. Jack Nicklaus for being here with 
us again. He testified before the committee 4 years ago, and I 
am sure he will have some figures to show us how their program 
has grown in the last 4 years.
    It is a pleasure to have him here, and it goes without 
saying that we are honored to be in the presence of a living 
legend.
    This morning's hearing focuses on character, education, and 
the work organizations that schools are doing to build 
character in the U.S. students. Far too many children 
throughout the United States face difficult circumstances. 
Broken homes, poverty, drugs, alcohol and violence are everyday 
factors confronted by many of today's youth. And character 
education plays a valuable roll in instilling values to help 
them overcome these obstacles.
    I was watching TV. You couldn't miss it, I think, the last 
couple of days, the gunfights, the violence that young people 
are engaged in, and they keep showing those things on 
television. They don't show the good things. That is why it is 
important to have this hearing today, to focus on the good 
things that are happening among some of our Nation's youth.
    One organization which has built a solid reputation of 
installing positive values through character education is the 
The First Tee, which Mr. Nicklaus will be discussing shortly. 
The First Tee is a youth character building organization that 
provides young people of all backgrounds an opportunity to 
develop through both the game of golf and character education, 
values and character traits that will positively impact their 
lives.
    I am a golfer of sorts myself, so I might be biased in 
saying this, but I truly believe that no activity better 
parallels life and teaches character than the game of golf. On 
the golf course you learn responsibility, honesty, patience, 
self-control, integrity, respect, confidence and sportsmanship.
    For some of us it takes a long time to learn those things, 
but it works toward that end. You learn that a short putt is 
just as important as a long drive, and that you must put the 
last shot behind you in order to execute the next. The First 
Tee emphasizes these fine points for countless young Americans, 
and I commend the organization for its ongoing good work.
    This morning some of us attended a breakfast and had an 
opportunity to see some of the things that the program is 
doing. We met two of the scholars, youth from this program, 
Zalika--did I say that right--Zalika Nesbith and Rashion Paton. 
Would you please both stand?
    We heard them both speak this morning and they did a much 
better job than I am doing. And it would be exciting to watch 
what they do in their careers as they go through life because 
of some of the things that they have learned from the The First 
Tee program.
    This hearing will also examine the efforts of schools to 
enact the great character education into their curriculum. 
Character education typically includes direct instruction and 
other efforts that promote in students values such as 
responsibility, respect, trust, hard work, and civic 
engagement. Through the No Child Left Behind Act, Congress has 
stepped forward in promoting character education. The law 
establishes competitive grants for States and local school 
districts for character education programs that can be 
integrated into classroom instruction.
    This year alone, this program is funded at nearly $25 
million. Scores of schools also are developing character 
education curriculum independent of this Federal program.
    Many schools who have implemented these types of 
initiatives have reported rising test scores and improved 
student behavior. And this morning we will hear about the 
positive results generated by one such school's character 
education initiative.
    It is clear the public, private, and nonprofit 
organizations are working each day to build character education 
in our Nation's youth, and I am pleased that we are providing a 
platform to highlight their efforts today.
    With that, I would like to yield to my good friend, Ms. 
Woolsey for her opening statement.
    [The prepared statement of Mr. McKeon follows:]

    Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, 
                Committee on Education and the Workforce

    Good morning, and I thank my colleagues on the Committee for 
joining me at this unique and important hearing. I welcome each of our 
witnesses and applaud them for the work they do to build character 
education in our nation's youth. And I extend a special welcome back to 
Mr. Jack Nicklaus, who testified before our Committee four years ago. 
It's always a pleasure to have him here, and it goes without saying 
that we're honored to be joined by a living legend.
    This morning's hearing focuses on character education and the work 
organizations and schools are doing to build character in U.S. 
students. Far too many children throughout the United States face 
difficult circumstances. Broken homes, poverty, drugs, alcohol, and 
violence are everyday factors confronted by many of today's youth. And 
character education plays a valuable role in instilling values to help 
them overcome these obstacles.
    One organization which has built a solid reputation of instilling 
positive values through character education is The First Tee, which Mr. 
Nicklaus will be discussing shortly. The First Tee is a youth character 
building organization that provides young people of all backgrounds an 
opportunity to develop, through both the game of golf and character 
education, values and character traits that will positively impact 
their lives.
    I am a golfer myself, so I might be biased in saying this. But I 
truly believe that no activity better parallels life and teaches 
character than the game of golf. On the golf course, you learn 
responsibility, honesty, patience, self-control, integrity, respect, 
confidence, and sportsmanship. You learn that a short putt is just as 
important as a long drive, and that you must put the last shot behind 
you in order to execute the next. The First Tee emphasizes these fine 
points for countless young Americans, and I commend the organization 
for its ongoing good work. At this time, I'd like to recognize and 
welcome two recent high school graduates, Zalika Nisbeth and Rayshon 
Payton, who are here to represent the First Tee's Scholars Program 
Class of 2006.
    This hearing will also examine the efforts of schools to integrate 
character education into their curriculum. Character education 
typically includes direct instruction and other efforts that promote in 
students values such as responsibility, respect, trust, hard work, and 
civic engagement.
    Through the No Child Left Behind Act, Congress has stepped forward 
in promoting character education. The law establishes competitive 
grants for states and local school districts for character education 
programs that can be integrated into classroom instruction. This year 
alone, this program is funded at nearly $25 million.
    Scores of schools also are developing character education 
curriculum independent of this federal program. Many schools who have 
implemented these types of initiatives have reported rising test scores 
and improved student behavior. And this morning, we'll hear about the 
positive results generated by one such school's character education 
initiative.
    It is clear that public, private, and non-profit organizations are 
working each day to build character education in our nation's youth, 
and I'm pleased we are providing a platform to highlight their efforts. 
And with that, I yield to my friend, Ms. Woolsey, for any opening 
statement she may have.
                                 ______
                                 
    Ms. Woolsey. Thank you, Mr. Chairman. I apologize for being 
late when you were speaking so eloquently.
    I look forward to our witnesses' testimony on the 
importance of sports, how important it is to character 
development. You know, I am the mother of four adults who all 
grew up being athletes. My daughter was a competitive skater. 
One of my sons was an All Star baseball player all the way 
through college. Another son was an All American football 
player in college. And I can tell you that their character, 
their poise, and their leadership abilities improved and grew 
from little kids up to young adults from the experience of 
being part of a good athletic program.
    In fact, my football player son came to me after he had 
graduated from college--he had been an All American for junior 
and senior year--and said, Mother I want you to go for a walk 
with me. And I said OK. Anything to just hang around with him.
    So we went walking around the block and he said, Mother, I 
am through with football, and I want you to get over it. It is 
so fun as a parent to support a young person who is competing 
and doing the best they can in any endeavor, and of course 
athletics is one, because I know personally how important 
sports is to character development. I am especially interested 
in what Professor Hogshead-Makar is going to say about the Bush 
administration's Title IX policy changes and how that could 
threaten to roll back 34 years of progress for girls and young 
women.
    It is ironic to me that we are discussing Title IX in the 
context of character education, when keeping promises is a sign 
of good character, and the Bush administration has broken its 
promise on Title IX. And we can't forget that.
    In 2002, the administration established a Commission to 
study Title IX. In 2003, the Commission recommended actions 
that would have so damaged Title IX that after strong public 
opposition, the administration was forced to reject the 
Commission's proposals and to state its support for 
longstanding Title IX policies.
    But last year the administration did an about-face without 
notice or public input. They changed Title IX policy to allow a 
school to use a single e-mail survey to demonstrate that it is 
meeting women students' interest in participating in sports.
    Not only that, but the administration policy allows the 
school to assume that any young woman who does not respond to 
the survey is not interested in sports. Think about it: The 
administration's policy is to enforce a major civil rights law 
based on whether or not people who benefit from the law respond 
to one of the hundreds of e-mails in their inbox.
    That is more than bad policy. It is unacceptable.
    I have introduced a bipartisan resolution, H.Res. 735, that 
calls on the administration to rescind its policy change, and I 
urge all of my colleagues to support it as soon as you can.
    It is also unacceptable that the administration and 
Congress have broken their promise under the No Child Left 
Behind Act. I believe that we need to take a hard look at how 
to improve No Child Left Behind. But even the best written law 
will not help our students unless we provide our schools with 
the resources that they need.
    Unfortunately, the only thing about No Child Left Behind 
funding that has increased each year is the gap between what 
President Bush and Congress promised our school children and 
what they have provided for our school children.
    So let us talk about that today. Let us celebrate character 
development in athletics, but let us not forget that part of 
our character as Members of Congress is fulfilling our promises 
to our youth.
    I yield back.
    [The information referred to follows:]

                              H. RES. 735

    Expressing the sense of the House of Representatives that the 
``Additional Clarification of Intercollegiate Athletics Policy: Three-
Part Test--part Three'', issued by the United States Department of 
Education without notice or opportunity for public comment on March 17, 
2005, is inconsistent with longstanding Department policies and 
fundamental principles of equality, is a disservice to our Nation's 
young women, and should be withdrawn by the Department of Education.

                    IN THE HOUSE OF REPRESENTATIVES

                             March 16, 2006

Ms. Woolsey (for herself, Mr. Shays, Ms. Solis, Mrs. Johnson of 
        Connecticut, Mrs. Capps, Mr. Boehlert, Mr. George Miller of 
        California, Mr. Simmons, Ms. Pelosi, Mr. Peterson of Minnesota, 
        Ms. Baldwin, Ms. Moore of Wisconsin, Mr. Al Green of Texas, Ms. 
        McCollum of Minnesota, Mr. Farr, Mr. Brown of Ohio, Ms. Matsui, 
        Ms. Watson, Ms. Millender-McDonald, Mr. Nadler, Ms. Slaughter, 
        Mr. Frank of Massachusetts, Mr. Capuano, Mr. Olver, Mr. Lewis 
        of Georgia, Mr. Cardin, Ms. Herseth, Ms. Bean, Mr. Kucinich, 
        Ms. Wasserman Schultz, Mr. Grijalva, Ms. DeGette, Mrs. Maloney, 
        Mr. Conyers, Ms. Hooley, Mr. Case, Ms. Schakowsky, Mrs. 
        Tauscher, Ms. Roybal-Allard, Ms. Jackson-Lee of Texas, Ms. Zoe 
        Lofgren of California, Mr. Sabo, Mrs. Capito, Mr. Owens, Mr. 
        Van Hollen, Mr. Payne, and Mr. Davis of Illinois) submitted the 
        following resolution; which was referred to the Committee on 
        Education and the Workforce

                               RESOLUTION

    Expressing the sense of the House of Representatives that the 
``Additional Clarification of Intercollegiate Athletics Policy: Three-
Part Test--part Three'', issued by the United States Department of 
Education without notice or opportunity for public comment on March 17, 
2005, is inconsistent with longstanding Department policies and 
fundamental principles of equality, is a disservice to our Nation's 
young women, and should be withdrawn by the Department of Education.

Whereas title IX of the Education Amendments of 1972 prohibits educational 
institutions that receive Federal funding from discriminating on the basis 
of sex, including in their athletics programs and activities;

Whereas prior to 1972 and the enactment of title IX, virtually no college 
or university offered athletic scholarships to women, fewer than 32,000 
women participated in collegiate sports, and women's sports received only 2 
percent of funds spent on college athletics programs;

Whereas as a result of title IX, women's opportunities to participate in 
and benefit from collegiate athletics programs have grown dramatically, 
such that there are now nearly 160,000 women competing on intercollegiate 
teams;

Whereas despite the gains engendered by title IX, discriminatory barriers 
to women's participation in sports remain, and women receive only about 43 
percent of the opportunities to play intercollegiate sports, 38 percent of 
athletic operating budgets, and 33 percent of the funds spent to recruit 
new athletes;

Whereas the Department of Health, Education, and Welfare issued ``Title IX 
of the Education Amendments of 1972; a Policy Interpretation; Title IX and 
Intercollegiate Athletics'' in 1979 (later adopted by the Department of 
Education) (``1979 Policy Interpretation'') that allows educational 
institutions to comply with title IX's requirement that they provide equal 
sports participation opportunities for their male and female students in 
one of three independent ways: by providing participation opportunities for 
male and female students in numbers substantially proportionate to their 
respective full-time enrollments, by showing a history and continuing 
practice of program expansion responsive to the interests and abilities of 
the under-represented sex, or by fully and effectively accommodating the 
interests and abilities of members of the under-represented sex;

Whereas the Office for Civil Rights of the Department of Education in 1996 
issued a ``Clarification of Intercollegiate Athletics Policy Guidance'' 
(``1996 Clarification'') that set out specific examples and additional 
advice to guide educational institutions in meeting the standards of this 
``three-part test;''

Whereas the 1979 Policy Interpretation and the 1996 Clarification provide 
educational institutions with ample and fair guidance on compliance with 
title IX and provide flexibility to the institutions so that they may 
determine for themselves how best to comply with the law;

Whereas two out of three educational institutions have complied with the 
three-part test under the second or third part of the test;

Whereas the three-part test has been deferred to by every Federal appellate 
court--nine of nine--that has considered it;

Whereas the three-part test has been supported by every Department of 
Education since its adoption in 1979;

Whereas the most recent affirmation of the three-part test came on July 11, 
2003, when the Office for Civil Rights of the Department of Education 
issued the ``Further Clarification of Intercollegiate Athletics Policy 
Guidance Regarding Title IX Compliance'' (``Further Clarification'') which 
reaffirmed that the three-part test is flexible and fair, specifically 
incorporated the factors and examples set forth in the 1996 Clarification, 
and pledged to aggressively enforce title IX standards;

Whereas the 2003 Further Clarification followed the Department's 
establishment of a Commission on Opportunity in Athletics, which Commission 
made recommendations for changes to the title IX athletics policies that 
would have seriously weakened title IX's protections and resulted in 
significant losses in participation opportunities and scholarships to which 
young women are legally entitled;

Whereas the recommendations made by the Commission on Opportunity in 
Athletics triggered massive public opposition and generated thousands of 
communications to the Department, the White House, and the Congress 
supporting the maintenance of the then-current title IX athletics policies 
without change;

Whereas the 2003 Further Clarification represented the Department's 
rejection of the Commission's recommendations;

Whereas the Department, without notice or opportunity for public input, 
issued an ``Additional Clarification of Intercollegiate Athletics Policy: 
Three-Part Test--part Three'' on March 17, 2005 (``Additional 
Clarification''), which allows schools to demonstrate full accommodation of 
women's athletic interests under the third part of the three-part test 
solely by conducting an e-mail survey and further allows schools to treat a 
lack of response to the survey as a lack of interest in playing additional 
sports;

Whereas the Additional Clarification is inconsistent with the 1996 
Clarification and with basic principles of equity under title IX because 
it, among other problems (1) permits schools to use surveys alone, rather 
than the multiple factors set forth in the 1996 Clarification, as a means 
to demonstrate full accommodation of women's athletic interests, (2) 
conflicts with a key purpose of title IX--to encourage women's interests in 
sports and eliminate stereotypes that discourage them from participating, 
(3) allows schools to restrict surveys to enrolled and admitted students, 
thereby permitting them to evade their legal obligation to measure interest 
broadly, (4) authorizes a flawed survey methodology, including by allowing 
schools to count non-responses as evidence of lack of interest in 
additional sports opportunities, (5) shifts the burden to female students 
to show that they are interested in and entitled to additional 
participation opportunities, and (6) makes no provision for the Department 
of Education to monitor schools' implementation of the survey or its 
results;

Whereas for these reasons, the Additional Clarification makes it easier for 
colleges and universities to evade their legal obligation to provide equal 
opportunity in sports and violates the Department's 2003 commitment to 
strongly enforce long-standing title IX standards;

Whereas for these reasons, the Additional Clarification is likely to be 
found to violate the standards of title IX as explained in relevant court 
cases; and

Whereas for these reasons, the Additional Clarification threatens to 
reverse the enormous progress women and girls have made in sports since the 
enactment of title IX and to slow, if not stop, efforts to address the 
continuing discrimination to which female athletes are still subject: Now, 
therefore, be it

    Resolved, That it is the sense of the House of Representatives 
that--

            (1) the March 17, 2005, ``Additional Clarification'' 
        violates the spirit and intent of the mandate of title IX of 
        the Education Amendments of 1972 to provide equal opportunities 
        in athletics and changes prior Department of Education policies 
        and longstanding title IX law;

            (2) the Department of Education should withdraw the March 
        17, 2005, ``Additional Clarification,'' leaving intact the 
        standards of the 1996 Clarification, which standards anticipate 
        the use of a multiplicity of tools and analyses to demonstrate 
        compliance under the third part of title IX's three-part test; 
        and

            (3) the Department of Education should honor its 2003 
        commitment to enforce the standards of longstanding title IX 
        athletics policies, including the 1996 Clarification.
                                 ______
                                 
    Chairman McKeon. We are going to have a good day today.
    What we want to do is focus on the character development 
for our children, and I am glad to see a bunch of them here in 
the audience.
    We have a distinguished panel of witnesses today, and I 
want to begin by welcoming them.
    First, Mr. Jack Nicklaus, also known as the Golden Bear, 
has won a record 20 major championship titles and is arguably 
the greatest golfer of all time. He has been named Golfer of 
the Century or Golfer of the Millennium by almost every golf 
media. He is involved in numerous charitable causes ranging 
from junior golf to children's hospitals. Mr. Nicklaus serves 
as co-chairperson of the First Tees More Than a Game Campaign. 
And I am really, really appreciative of him taking the time out 
to be with us here this morning.
    Then we will hear from Dr. Maureen Weiss. She is a 
professor of the Currey School of Education at the University 
of Virginia. Her research has focused on the psychological and 
social development of children and adolescents through 
participation in sport and physical activity, with particular 
interest in self-perceptions, motivation, observational 
learning, and character development.
    Dr. Weiss served as director of the children's summer 
sports program at the University of Oregon from 1982 to 1997. 
Currently she is conducting a 4-year longitudinal study of 
positive youth development through port funding by the The 
First Tee of the World Golf Foundation and Phillip Morris youth 
smoking prevention programs.
    Then we will hear from Ms. Sharon Aldredge, principal of 
Woodley Hills Elementary School, located in Alexandria. Miss 
Aldredge began her time in 2001 as an assistant principal and 
has served as principal for the last 2 years. Prior to working 
at Woodley Hills, Ms. Aldredge was a special education teacher 
for nearly 10 years. She has done a greet deal of work with 
regards to character education and has even presented 
information on this topic to visiting delegations from China 
and Egypt.
    Finally, we will here from Miss Nancy Hogshead-Makar who is 
a world-class swimmer. At the 1984 Olympics she won more Gold 
Medals than any other swimmer; three Gold and one Silver. Nancy 
has been inducted into seven halls of fame, including the 
International Swimming Hall of Fame. In 2004 she was inducted 
into the International Women's Sports Hall of Fame. In 2000, 
Sports Illustrated named her as Florida's 13th greatest athlete 
of the 20th century. Today, Ms. Hogshead-Makar is a professor 
at the Florida Coastal School of Law, where she teaches torts 
and sports law.
    We would like to hear from each of you and then we will 
have time for questions from the members of the committee.
    Excuse me. I didn't hear that, but we do have a motion to 
adjourn. That means Democrats are playing games. So we will go 
over and vote and come right back. If we could ask you to 
indulge us in that.
    Committee stands in recess for 5 minutes.
    [Recess.]
    Chairman McKeon. The committee will come to order.
    Now we can begin. We will have Mr. Nicklaus begin with his 
testimony.

        STATEMENT OF JACK NICKLAUS, PROFESSIONAL GOLFER

    Mr. Nicklaus. My name is Jack Nicklaus.
    Chairman McKeon. Jack, is your Mike on.
    Mr. Nicklaus. Now we have got it.
    OK. I'll start over. My name is Jack Nicklaus. I serve as 
Chair for More Than a Game Campaign for The First Tee. My wife 
Barbara and I have had a long interest in the welfare of 
children, particularly in giving them the opportunity to 
develop their full potential. The First Tee is a program that 
does exactly that. The First Tee uses the game of golf to teach 
youngsters skills that enable them to incorporate positive 
values into their behaviors.
    The First Tee is based upon nine core values: honesty 
responsibility, respect, judgment, courtesy, perseverance, 
integrity, confidence, and sportsmanship. And our Life Skills 
curriculum ensures that every youngster who comes to The First 
Tee is taught more than the game of golf. Some of you might say 
that golf is the vehicle but not the destination.
    I was fortunate as a child, and I had a strong loving 
family with parents who taught me solid values and ethics and 
integrity, were interested in everything I did, and encouraged 
me, supported me. That included my golf career. Through golf, I 
learned at an early age the discipline that this sport 
requires, the sportsmanship that it requires. I learned these 
and other important values because I was fortunate to have 
strong role models, among them my father and my longtime 
teacher Jack Grout. My father introduced me to the game and 
guided me on the fundamentals, but focused me on the aspects of 
golf that could make me a better person than a better golfer. 
The first time he saw me throw a golf club, he told me he would 
hope that would be the last, and it was.
    Jack Grout came into my life at one point for the next four 
decades. My fondest memories of Jack were the days that we just 
talked about everything in life except golf.
    My father and Jack told me that what I actually 
accomplished in my golf game was not nearly as important as 
earning the respect of others for how I conducted myself and my 
life, and that is something I have always tried to do. Golf is 
a wonderful vehicle to teach you life lessons, but sometimes it 
is the people you meet in the game of golf that guide you 
through the most important lessons. Not every child gets the 
kind of grounding and positive reinforcement at home and school 
that I was fortunate to receive, and that is why programs like 
The First Tee are so important for the development of the next 
generation.
    Children are precious to my wife and me and that is why our 
priorities at home or in the community tend to focus on youth. 
That is why when Barbara and I created an endowment fund, we 
chose The First Tee as the avenue to direct these youngsters so 
they might reach and impact as many youngsters' lives as 
possible, because we knew The First Tee makes a difference.
    I had the privilege of testifying before this committee on 
behalf of The First Tee in 2002. The growth and implementation 
that we have seen since then has been remarkable.
    In 2002, we reached 103,000 youngsters. In 2005 we reached 
760,000 youngsters. In 2002 we had 115 facilities; now we have 
258. In 2002 we were in 20 States; now we are in 47.
    Besides the growth of our First Tee network since I was 
here last, we have launched The First Tee national school 
program. We are now introducing golf and First Tee's nine core 
values into the physical education curriculum in elementary and 
middle schools. By 2010, our goal is to be to in 4,000 schools 
and to reach 2-1/2 million children through that program alone.
    Dr. Weiss is going to tell you about the research we have 
done to document the effectiveness of our Life Skills 
curriculum. But I would like to say a word about some of the 
The First Tee youngsters I have met.
    In 2002 I was joined on this panel by Amber Davis, a young 
lady and The First Tee participant from Atlanta. I was so 
impressed by Amber's maturity, composure, and what she had to 
say, I invited her a few months later to come to a grand 
opening of one of the golf courses I did. She was terrific.
    This morning we had two youngsters, Zalike and Rayshon, 
who--I couldn't talk after I was done listening, they were so 
terrific. They were just unbelievable.
    And last year before the President's Cup competition, I 
participated in a First Tee achievers program. Twelve young 
people who had persevered through some hardship were brought 
together and were honored. One of the two national award 
winners, Eric Jones from Fort Smith, had been in a car accident 
and it forced him to have to learn to walk and talk all over 
again. And as part of his road to recovery, he returned to the 
The First Tee of Fort Smith and served as a mentor to younger 
children in the program. Eric knew that by helping others he 
would also be helping himself.
    There are just a few examples of the positive impact The 
First Tee has in every chapter, in every part of this country. 
At a time when we need to do everything we can to promote 
positive values in our children, particularly thinking beyond 
ourselves and caring for ourselves, The First Tee has adopted 
that mission and is doing it effectively.
    These children need our help, including yours. We hope you 
will look favorably upon The First Tee and, in turn, the 
children this program can and will touch. Thank you for 
allowing me to speak to you today and be a voice on behalf of 
the children of The First Tee. Thank you.
    Chairman McKeon. Thank you.
    [The prepared statement of Mr. Nicklaus follows:]

        Prepared Statement of Jack Nicklaus, Professional Golfer

    My name is Jack Nicklaus and I serve as a co-chair of the More Than 
A Game Campaign for The First Tee. My wife Barbara and I have had a 
long time interest in the welfare of children, particularly giving them 
the opportunity to develop their full potential. The First Tee is a 
program that does exactly that.
    The First Tee uses the game of golf to teach youngsters skills that 
enable them to incorporate positive values into their behaviors. The 
First Tee is based upon nine core values (honesty, responsibility, 
respect, judgment, courtesy, perseverance, integrity, confidence, and 
sportsmanship) and our Life Skills curriculum ensures that every 
youngster who comes to The First Tee is taught more than the game of 
golf.
    I had the privilege of testifying before this committee on behalf 
of The First Tee in 2002. The growth and impact that we have had since 
that time has been remarkable:
    <bullet> in 2002 we reached 103,000 youngsters; in 2005 we reached 
760,000;
    <bullet> in 2002 we had 115 facilities, we now have 257;
    <bullet> in 2002 we were in 20 states, we are now in 47.
    Besides the growth of our Chapter network, since I was here last, 
we also launched The First Tee National School Program. We are now 
introducing golf and The First Tee's Nine Core Values into the physical 
education curriculum in elementary and middle schools. By 2010 our goal 
is to be in 4,000 schools and to reach 2.5 million children through 
that program alone.
    Dr. Weiss is going to tell you about the research we have done to 
document the effectiveness of our Life Skills curriculum, but I would 
just like to say a word about some of The First Tee youngsters I have 
met.
    In 2002 I was joined on this panel by Amber Davis, a young lady and 
First Tee participant from Atlanta. I was so impressed by what Amber 
had to say and her composure that later that year I invited her to 
speak at the grand opening of a new golf course I designed in her area. 
Last year before the Presidents Cup competition, I participated in The 
First Tee's Achiever of the Year program. Twelve young people who had 
persevered through some hardship were brought together to be honored. 
One of the two national award winners, Eric Jones from Fort Smith, had 
been in a car accident that forced him to have to learn to walk and 
talk all over again. As part of his road to recovery he returned to The 
First Tee of Fort Smith and served as a mentor to the younger children 
in the program. Eric knew that by helping others he would also be 
helping himself.
    There are examples of the positive impact of The First Tee in every 
Chapter in every part of the country. At a time when we need to do 
everything we can to promote positive values in our children, 
particularly thinking beyond themselves and caring for others, The 
First Tee has adopted that mission and is doing it effectively.
    Thank you for your attention and interest in The First Tee.
                                 ______
                                 
    Chairman McKeon. Dr. Weiss.

    STATEMENT OF MAUREEN R. WEISS, PROFESSOR OF EDUCATION, 
                     UNIVERSITY OF VIRGINIA

    Ms. Weiss. Thank you for the opportunity to speak about the 
passion of my life's work: the potential of sport participation 
to make an impact on character development and other forms of 
social and psychological development.
    In my 5 minutes today, I would like to make three key 
points:
    One, that sports can build character in youth participants, 
but it is not an automatic consequence of mere participation.
    Second, there is a body of research knowledge out there 
that informs us of the conditions under which positive youth 
development, including character, can and will likely occur.
    And third, the First Tee is an exemplary program for 
demonstrating how to maximize positive youth development based 
on scientific evidence of its effectiveness.
    To my first point that sports can build character but is 
not automatic, the role of support in our society in teaching 
values to youth has been a controversial topic for many 
decades; in fact, at least three centuries or even longer. On 
the one hand, we have advocates of sport who claim that sport 
builds character by teaching values such as honesty, respect, 
responsibility, fair play and cooperation.
    There is the other side, though, as well, the sport critics 
who say sport doesn't build character. It develops character by 
showing individuals how to cheat, be dishonest, and even engage 
in aggressive play.
    The bottom line is really that sport is a double-edged 
sword. It can build character or characters. It depends 
tremendously on the quality of adult leadership and the 
structure of activities in experiences for youth.
    To my second point that a body of knowledge exists that 
specifies how and why positive youth departments, including 
character education, is most likely to occur through sport 
participation. There are many social, contextual, and personal 
factors that affect whether individuals develop character. Most 
notably, there are three conditions or ingredients that 
maximize positive social and psychological outcomes among 
youth. One is a psychologically safe climate that emphasizes 
personal mastery in group cooperation, rather than comparing 
favorably to others and an emphasis on winning. Second is 
close, trusting, and caring relationships with both important 
adults, such as coaches, parents, and other educators, as well 
as peers such as teammates, classmates, and nonsport friends. 
And the third condition is the importance of learning skills 
that are transferable to other life domains.
    So if one is learning honesty and responsibility within 
support, the important thing is, rather, that transfers to 
other domains of their lives such as school and home.
    The million dollar question, though, is which youth sport 
programs contain these things that maximize positive youth 
development. Which brings me to my third point, that being The 
First Tee is a model program for showing how character and 
other developmental assets can be developed in youth.
    The First Tee is one of the few youth development programs 
that I know of as an educator that has these three essential 
ingredients for maximizing positive youth development in place. 
They have an appropriate climate or context, trained coaches 
who embrace a youth-centered philosophy, and a deliberate 
curriculum that focuses upon life skills, in addition to 
standing out based on having the components of positive youth 
development in place. The First Tee now has data base evidence 
of its effectiveness in developing character and other positive 
attributes. Data base evidence is important for demonstrating 
the efficacy of programs and achieving their goals of positive 
youth development.
    My students and I at the University of Virginia are 
currently in the second year of a 4-year study documenting the 
effectiveness of the The First Tee educational programs on 
positive youth development. In our first year, our results in a 
nutshell show that well over 90 percent of the 11- to 17-year 
old youths show transfer of skills such as showing respect, 
meeting others, and getting to start a conversation, goal 
setting, managing emotions, maintaining a positive attitude, 
and resisting peer pressure to engage in unhealthy behaviors. 
These skills were learned through the deliberate curriculum 
within the context of golf and transferred to other important 
life domains such as at school, at home, and other social 
situations, and in their neighborhood.
    This evidence of transfer from the golf context to other 
life contexts was corroborated through interviews with parents 
and coaches as well.
    As researchers, we attribute such positive results to what 
we call the synergy among the climate, the program delivery, 
and the curriculum in the First Tee. That is, the essential 
components for maximizing positive youth development. 
Collectively, our findings have shown scientific evidence of 
the effectiveness of the The First Tee as an exemplary youth 
development program.
    So in summary, my points are that character development is 
not automatic. One needs to teach for character. The body of 
knowledge indicates the conditions under which we teach for 
character climate, significant others, and life skills and the 
First Tee has evidence of effectiveness.
    I want to conclude with a brief quote from one of the 16-
year-old boys on how he has learned through the The First Tee 
to make decisions in his life.
    I quote: ``when there is a big challenge, it has really 
helped me to stop and think about what I am doing and make 
decisions that will help me in the long run, 'cause there is so 
much to get into trouble especially at my age. It's just good 
to stop and think about what you are about to do. Being invited 
to a party, you know, there is going to be drugs and alcohol 
there. Just don't get involved in it. I have never regretted 
the decision that I have made 'cause most of the time that is 
what helps me make the right decision.''
    Thank you very much for your attention.
    Chairman McKeon. Thank you very much.
    [The prepared statement of Ms. Weiss follows:]

Prepared Statement of Dr. Maureen R. Weiss, Professor, Curry School of 
                   Education, University of Virginia

    Chairman McKeon and members of the Committee, thank you for the 
opportunity to speak about a topic for which I have much passion--the 
unique social context of sport in developing character and other forms 
of social development. In addition, I will discuss The First Tee as an 
example of a youth development program that is having a positive impact 
on instilling character and teaching important life skills and values 
to participants. Today my presentation will include information 
stemming from my own as well as others' research on character 
development through sport as well as specific findings from our first 
year of research evaluating the effectiveness of The First Tee 
educational programs on positive youth development. First I would like 
to start with some words on the context of youth sport participation in 
our country.
Context of Youth Sport Participation
    Sport participation is a ubiquitous phenomenon among children and 
adolescents in American society. An estimated 30 million youths between 
the ages of 5 and 18 years engage in community-based or agency-
sponsored sports (e.g., The First Tee, Little League baseball, U.S. 
Olympic Development programs, YMCA/YWCA, Boys' and Girls' Clubs), 
ranging from individual sports such as golf and swimming to team sports 
such as baseball and basketball (Weiss & Hayashi, 1996). Another 7 
million adolescents compete in organized school sports (National 
Federation of State High School Associations, 2003).
    Girls and boys participate in sport for a multitude of reasons, 
most notably to learn and improve skills, to be with and make friends, 
to feel part of a group, and to have fun (Weiss & Williams, 2004). When 
caring and competent adults supervise youth activities, children 
experience positive feelings that translate to a desire to continue 
participation and opportunities to reap the benefits afforded by 
involvement in such activities.
    A substantial body of knowledge documents the potential benefits of 
athletic participation. Some of these benefits include self-esteem, 
social relationships, intrinsic motivation, self-regulation skills, and 
character development (Reeve & Weiss, 2006; Weiss, 1993; Weiss & Smith, 
2002). Studies based in school settings have demonstrated positive 
effects of sport participation on academic achievement, development of 
peer networks, character development, and identity formation (Barber, 
Eccles, & Stone, 2001; Eccles & Barber, 1999; Gibbons, Ebbeck, & Weiss, 
1995; Marsh & Kleitman, 2003). Moreover, participation in structured 
extracurricular activities has been associated with lower dropout 
rates, lower antisocial behaviors, and higher educational status 
(Mahoney, 2000; Mahoney, Cairns, & Farmer, 2003). Thus, youth 
involvement in sport and physical activity affords many potential 
social, psychological, and behavioral outcomes.
    It is important to note, however, that improvements in self-
confidence, character, and interpersonal skills, among other 
characteristics, are not automatic consequences of sport involvement. 
The literature on risk prevention and resiliency demonstrates that 
effective youth development programs are those that emphasize personal 
skill development (e.g., self-regulation, social responsibility), 
positive adult leadership styles and behaviors, and a climate focused 
upon learning and mastery (Catalano, Berglund, Ryan, Lonczak, & 
Hawkins, 2002; Petitpas, Cornelius, Van Raalte, & Jones, 2005). 
Educators and parents are responsible for ensuring that youth glean 
positive experiences from their activity participation. To do so means 
that sport and life skills need to be taught deliberately and 
systematically.
Character Development through Sport Participation
    Character development is without doubt one of the most hotly 
debated topics regarding the benefits and costs of sport involvement. 
On the one hand, educators and parents have long attested that 
participation in sport can teach children values such as honesty, 
respect, empathy, responsibility, cooperation, and fair play. On the 
other hand, sport critics implore that sport develops characters, not 
character, by lowering the bar for what behaviors are deemed acceptable 
during the course of play (Weiss & Smith, 2002). The bottom line is 
that sport has the potential to build character or characters, 
depending on the quality of adult leadership and the types of 
experiences afforded children in the competitive environment.
    Children define character consistent with behavioral norms and 
conventions within one's society (e.g., follow the rules, take turns, 
be honest) as well as concerns about the physical and psychological 
well-being of others (e.g., don't make fun of others, don't hurt others 
physically, show respect for others). Children understand the gist of 
``the golden rule'' (i.e., treat others the way you would want to be 
treated) and what it means to ``do the right thing'' when it comes to 
defining sportsmanship and fair play (Weiss & Smith, 2002). Children's 
definitions are very much in line with the two most prevalent theories 
of moral development--social learning and structural developmental 
approaches--that have guided inquiry on sport and character 
development. This is not surprising given moral psychologist Lawrence 
Kohlberg's observation of ``the child as a moral philosopher,'' 
referring to children's use of their social experiences to form 
judgments about what is just, fair, and right.
    According to social learning theory (Bandura, 1986), character is 
defined as prosocial behaviors that are consistent with societal norms, 
such as honesty, respect, and helping. Children learn these behaviors 
through observing high status models (e.g., coaches, professional 
athletes), interpreting whether parents, coaches, and teammates approve 
or disapprove of unsportsmanlike play, and experiencing reinforcement 
vicariously (e.g., seeing another player being praised for supporting 
teammates). Structural developmental theories focus on individuals' 
moral reasoning underlying behavior, or why individuals act the way 
they do (see Weiss & Smith, 2002). Children are active participants in 
constructing meaning about moral issues by interacting with adults and 
peers in a variety of social contexts. According to this approach, a 
moral reasoning structure underlies one's judgments about what is right 
and wrong; this structure undergoes developmental change as a result of 
cognitive maturation and social interactions. Change proceeds from a 
focus on self-interest to an other-oriented orientation to a principled 
level emphasizing mutual interest and welfare. Collectively, character 
development is concerned with both behavioral expression as well as the 
reasons underlying behaviors.
    One of the many benefits of theory is that its principles can be 
tested through empirical research in specific social contexts and 
ultimately applied to practical teaching and coaching situations. 
Rest's (1984, 1986) four-component model of moral action focuses on two 
major sources of influence--social-contextual and individual difference 
factors--on moral sensitivity, judgment, intention, and behavior. 
Several studies have explored ways in which social settings influence 
personal beliefs and behaviors about what is ``right and wrong.'' Other 
work has examined how individual differences influence moral beliefs 
and actions. Taken together, this body of knowledge shows that both 
factors are important contributors to character development in sport. 
In the following paragraphs, I briefly summarize the research on 
social-contextual and individual difference factors in relation to 
character development through sport (Weiss, Smith, & Stuntz, 2006).
    The social context in which children reside is a strong contributor 
to character development (Weiss, Smith, & Stuntz, 2006). Relationships 
with teammates, coaches, officials, and parents shape youths' views of 
which behaviors are acceptable and unacceptable in sport. Internalizing 
normative beliefs and behaviors occurs through many pathways such as 
(a) socialization of prosocial behaviors, (b) modeling of sportsmanlike 
and unsportsmanlike behaviors, (c) social approval of aggressive and 
unfair play, (d) moral atmosphere, and (e) motivational climate (what 
goals are valued and emphasized). Studies show that aggressive actions 
are learned by watching elite athletes and are put into play by youth. 
In addition, believing that significant others approve of 
unsportsmanlike play is related to athletes' own approval of similar 
behaviors. The moral atmosphere, or collective group norms about 
legitimacy of behaviors, and perceptions of the motivational climate 
also influence character development in sport.
    Many individual difference factors also influence character 
development through sport, including social perspective-taking ability, 
moral reasoning level, achievement goal orientations, moral identity, 
and self-regulation skills (Weiss, Smith, & Stuntz, 2006). Individuals 
who use higher levels of moral reasoning, embrace higher task and lower 
ego goal orientations, have a central moral identity, and possess high 
levels of self-regulatory efficacy to resist peer pressure tend to both 
disapprove of aggressive and unsportsmanlike actions and do not engage 
in such actions themselves. Combined with previously discussed research 
on social contextual factors, it is clear that both personal and 
contextual factors influence moral beliefs and behaviors. Only by 
considering both sets of constructs can we comprehensively understand 
how to positively influence character development in sport.
    One of the main reasons it is so important for youth programs to 
target character development comes from the finding that moral 
reasoning level in sport and daily life contexts diverges at about ages 
12-13 and continues to broaden as age and sport experience increase 
(Bredemeier, 1995; Weiss, Smith, & Stuntz, 2006). Moral reasoning for 
sport situations is lower than for everyday life issues; Shields and 
Bredemeier (1995) coined the term game reasoning to reflect these 
differences. Game reasoning reflects one's viewpoint of sport as a form 
of bracketed morality or one that is set apart from the broader 
morality of everyday life. Game reasoning involves a moral 
transformation during athletic contests in which a self-interest 
perspective is considered a legitimate means of pursuing the goal of 
winning. Features of the sport context help form the ``brackets'' of 
sport morality that are embedded within daily life reasoning, such as 
rules of the game, officials deciding on rule infractions, and spatial 
and temporal separation of sport and everyday life experiences. Game 
reasoning is seen when professional athletes' unethical or violent 
actions are minimally punished, compared with similar actions in real 
life (e.g., high sticking in ice hockey, intentionally throwing 
``payback'' pitches at a baseball player). Given the potential for game 
reasoning to exist, it is important to recognize that sport is a valued 
and powerful social context for promoting high-level moral reasoning 
and associated prosocial behaviors in youth participants.
    The most encouraging research on character development in sport 
comes from intervention studies designed to promote prosocial and 
discourage antisocial behaviors among youth. The Fair Play for Kids 
program developed in Canada (Gibbons, Ebbeck, & Weiss, 1995) and the 
Responsibility Model (Hellison & Walsh, 2002) have been shown to be 
effective mostly in physical education settings. These and other 
interventions unequivocally show that when environments are structured 
to purposefully teach youth positive values and beliefs about 
sportsmanlike play, and positive role models are available to reinforce 
such behaviors, effects on character development are significantly 
different from control participants and the magnitude of effects are 
meaningful. The foundation of these programs--competent and caring 
adults and activities that are specifically designed to teach life 
skills--serves as an exemplar for developing after-school and 
extracurricular sports programs that target positive youth development 
(Larson, 2000; Mahoney, Larson, & Eccles, 2005; Petitpas et al., 2005).
The First Tee: A Model Program for Promoting Positive Youth Development
    Despite the knowledge that youth sport programs have the potential 
to make a positive impact on character and other forms of psychological 
and social development, systematic and longitudinal studies of 
developmental effects of sport programs are scarce (Petitpas et al., 
2005). We are not aware of any research that has followed youth from 
their initial participation onwards in a sports program specifically 
designed to develop life skills (social, psychological, self-
regulation, character development). Systematic evaluation data are 
necessary to definitively show whether youth who participate in a life 
skills program show positive developmental outcomes in both the short 
and long term of their involvement.
    Because positive youth development refers to acquiring 
psychological and social skills and characteristics that transfer to 
other domains (i.e., life skills), it is imperative that carefully 
designed research be conducted to investigate the efficacy of this 
assumption. According to Petitpas et al. (2005), positive youth 
development is most likely to occur when young people are (a) engaged 
in a desired activity within an appropriate environment (context), (b) 
surrounded by caring adult mentors and a positive group or community 
(external resources), and (c) learning skills that are important for 
managing life situations (internal assets). The First Tee is one of the 
few youth development programs that have these components in place. 
Specifically, The First Tee uses golf as a context and coaches as 
external resources to teach life skills (internal assets) to youth so 
that positive psychosocial and behavioral outcomes are maximized 
(positive youth development).
    The mission of The First Tee explicitly targets youth development: 
``To impact the lives of young people by providing learning facilities 
and educational programs that promote character development and life-
enhancing values through the game of golf.'' Recall that psychosocial 
development among youth does not happen automatically; curricula must 
be carefully designed based on the body of knowledge on youth 
development to ensure positive outcomes. To accomplish its goals, The 
First Tee Life Skills Experience provides the core lessons for teaching 
interpersonal, self-management, goal setting, and resistance skills. 
The First Tee Coach Program provides the training and youth-centered 
philosophy to ensure that life skills and positive social and 
psychological qualities are likely outcomes. Together, The First Tee 
Life Skills Experience and The First Tee Coach Program characterize the 
internal assets and external resources, respectively, which target 
positive youth development. The First Tee Nine Core Values represent 
positive youth development outcomes: honesty, integrity, sportsmanship, 
respect, courtesy, judgment, confidence, responsibility, and 
perseverance.
    Educators, program directors, and policymakers need to know whether 
youth programs are effective in achieving their goal of positive 
development. If so, this would provide evidence-based information of 
effectiveness, pinpoint what works and what doesn't work, identify 
program components that are particularly effective, and help identify 
where resources should be directed. To borrow from a well-known 
advertisement, such information would be ``priceless.''
    We are conducting on-going, longitudinal research to document the 
effectiveness of The First Tee educational programs on positive youth 
development. I would like to share some findings from our first year of 
data collection in 2005. We specified three purposes: (a) What impact 
do The First Tee life skills programs have on positive youth 
development? (b) What is unique about The First Tee life skills 
programs that make an impact on positive youth development? (c) What 
improvements are suggested for the life skills curriculum and delivery? 
Specifically, we were interested in learning how and why The First Tee 
contributes to youth development in the Nine Core Values.
    We interviewed 95 youth (ages 11-17), 26 coaches, and 24 parents 
representing Chapters varying in geographical area and diversity of 
participants. We used interviews because they yield substantial 
information, empower respondents by allowing information to emerge from 
them, and enable a viable method for learning about program 
effectiveness. Consistent with the core lesson content of The First Tee 
Life Skills Experience, we assessed how knowledgeable and skilled youth 
participants were in using interpersonal, self-management, goal 
setting, and resistance skills both in the golf context and most 
importantly in other domains of their life such as home, school, social 
situations, and workplace.
    Due to the volume of information we obtained, I will focus on two 
sets of results: (a) youth participants' responses relative to the 
first purpose on impact of The First Tee life skills education programs 
on positive development, and (b) unique features of The First Tee 
education programs that make an impact on youth development. For more 
detailed information, please see the document I submitted under 
separate cover, Summary Report of University of Virginia Research; 
``More than a Game:'' Longitudinal Effects of a Life Skills Education 
Program on Positive Youth Development.
Results for Purpose #1: What Impact do The First Tee Life Skills 
        Programs Have on Positive Youth Development?
    <bullet> Learning Interpersonal Skills
    <bullet> 100% of participants shared how they transfer meeting and 
greeting skills to other life domains such as school, home, 
neighborhood, sports, and workplace.
    <bullet> 94% of participants shared ways in which they show respect 
to others in other life domains, such as school, home, sports, and 
workplace.
    <bullet> Learning Self-Management Skills
    <bullet> 95% of participants used specific strategies taught in the 
curriculum to control negative emotions such as Be Patient, Be 
Positive, and Ask for Help, the 4Rs (replay, relax, ready, redo), and 
STAR (stop, think, anticipate, respond).
    <bullet> 100% of participants said they use these methods to manage 
negative thoughts, emotions, and behaviors in school, at home, in other 
sports, and when dealing with siblings, parents, classmates, and 
friends.
    <bullet> Learning to Make Healthy Choices
    <bullet> 91.3% of youth defined wellness in physical, mental, 
emotional, and social terms, stated why well-being was important in 
golf and life, and disclosed ways of promoting healthy behaviors.
    <bullet> Learning to Appreciate Diversity
    <bullet> 91.3% of youth indicated how experiences in The First Tee 
led to a greater appreciation for differences in skill, age, race, 
ethnicity, and culture. Appreciation for diversity was defined in terms 
of respecting others, enhancing social well-being, understanding 
others' perspectives, and learning from others.
Results for Purpose #2: What is Unique about The First Tee Life Skills 
        Programs that Make an Impact on Positive Youth Development?
    <bullet> Purposeful Connections to Promote Positive Youth 
Development: Synergy among Climate, Program Delivery, and Curriculum
    <bullet> Voices of adolescents, stories by coaches and parents, and 
percentage of youth transferring lessons learned in golf to life 
domains substantiate the unique synergy among the program components--
climate, program delivery, curriculum, and core values.
    <bullet> Seamless Approach: A Durable Bridge of Golf and Life 
Skills
    <bullet> An important aspect of the curriculum is integration of 
golf and life skills into one activity. The seamless approach to 
teaching is likely to have a long-lasting effect on young people 
because learning golf is not achieved independently from learning about 
life skills in a classroom. They are intertwined in one fun activity 
and bridged at the end of the activity.
    <bullet> Optimal Challenges: Matching the Activity to the Child, 
Not the Child to the Activity
    <bullet> The mastery-driven approach is known in the motivation 
literature as optimal challenges--defining success for the child 
relative to her or his abilities. Modifying facilities, equipment, and 
rules, and sequencing skills, align with the child's capabilities such 
as the concept of Personal Par.
    <bullet> Empowering Youth: Creating an Autonomy-Supportive 
Environment
    <bullet> Allowing youth to make choices about activities and goals 
creates what the motivation literature calls an autonomy-supportive 
environment. Including youth in decision making communicates that the 
coach is a valued source of support. As The First Tee Coach Philosophy 
espouses, ``Kids don't care what you know until they know you care.''
    <bullet> Catching Kids Doing Things Right: Motivating through Good-
Better-How
    <bullet> The Good-Better-How approach takes more time than ``fixing 
the problem'' as many coaches stated as the signature of most junior 
golf programs. Instead it is consistent with a philosophy of being 
youth-centered, which will motivate young people to enjoy their 
experiences and improve their skills and confidence.
Summary of Year 1 Findings and Future Directions
    Collectively, findings provide scientific data-based evidence of 
the effectiveness of The First Tee as an exemplary youth development 
program. The First Tee is having a strong positive impact on young 
people's development of life skills and core values. Additionally, the 
program is unique especially in the synergy among context (golf), 
external resources (program delivery by coaches), internal assets (life 
skills curriculum), and The First Tee Nine Core Values. We are now 
embarking on Year 2 data collection with our 2005 group and adding a 
new group in 2006. Both groups will be followed for at least 3 years to 
document (a) retention of life skills knowledge and use as well as 
levels of psychological and social development, and (b) differences in 
life skills and psychosocial outcomes compared to youth who are not 
participants in The First Tee.
    Answers to our study questions should ultimately benefit the 
children and adolescents who partake of The First Tee in communities 
across the United States and abroad. Additionally, the in-depth 
information on context, external resources, internal assets, and 
psychosocial outcomes identifies The First Tee program as an exemplar 
for other youth agencies and provides scientific evidence that may 
influence youth public policy. Such evidence should justify funding for 
youth programs that can demonstrate efficacy in developing character 
and other important social, psychological, and behavioral outcomes.
Concluding Thoughts: Sport Participation and Positive Youth Development
    Youth sports comprise an important part of children's experiences 
in our society. When experiences are positive, enhanced self-esteem, 
character, social relationships, and motivation to maintain an active 
lifestyle follow. Caring and competent adults are crucial in shaping 
positive attitudes and behaviors through modeling, reinforcement, 
expression of beliefs, and creating a cooperative climate. Based on 
theory and research, several conditions are necessary to maximize 
positive youth development: (a) a psychologically safe environment in 
which activities are optimally challenging, (b) close, trusting 
relationships with important adults and peers, and (c) acquisition of 
skills that are transferable to other life domains (character, social, 
emotional). The First Tee has these components in place and is making a 
significant impact on positive youth development, thereby achieving the 
goals identified in its mission statement. It is important that other 
youth development programs also demonstrate their effectiveness in 
reaching similar goals. The bottom line is an investment in our 
future--youth who grow up to become honest, responsible, and caring 
citizens in our society.
                                 ______
                                 
    Chairman McKeon. Miss Aldredge.

    STATEMENT OF SHARON ALDREDGE, PRINCIPAL, WOODLEY HILLS 
                       ELEMENTARY SCHOOL

    Ms. Aldredge. Good morning, Mr. Chairman and members of the 
committee. First of all, I would like to commend you all for 
discussing such an important aspect of education, and that is 
the development of moral reason and character in our youth. As 
was stated, I have been in education for 15 years, spending the 
last 5 years as administrator, and the last 2 as principal of 
Woodley Hills elementary School in Fairfax County. I can attest 
to the positive results of a strong character education 
initiative in a school.
    In 1998 Woodley Hills would have been considered, and was 
considered, an unsuccessful school. Our test scores were very 
low. Only 40 to 50 percent of our students were passing the 
Virginia standards of learning test. There was an increase in 
suspensions from our students, one or two a week. But at that 
time, the principal and other administrator, parents and 
community members, came together and decided to implement a 
chair to education initiative within the building.
    There have been several positive results because of that. 
In 2001 Woodley Hills was named a national school of character 
by the Character Education Partnership Organization. Eighty to 
ninety percent of our children are now passing the Virginia 
tests. And we have only three to five suspensions a year.
    There have been a lot of changes in that building and, more 
importantly, our children come to school happy and they 
understand why character education is important.
    We did ask some of our fifth grade students why they 
thought it was important in the building, and I would like to 
read two of their quotes:
    One said, ``Larger education at this school is very 
important, because character education is what keeps this 
school in order. It teaches us the importance of being 
respectful, responsible, trusting, caring, acting like a family 
member, and how to become a hardworking person when we are 
older. Character education also teaches us how to be kind to 
others, so that is why character education is important.''
    Another fifth grader stated that, ``I would say character 
education has made a very big difference here because a lot of 
the kids in here pay attention to their lesson and they respect 
themselves, others, and property. A lot of kids in this school 
are well behaved,'' she said, ``because we were taught what was 
right to do and what is wrong to do.''
    Now, I need you to know that the success of the school has 
not been because of the change in our demographics. We received 
Title 1 funding because 57 percent of our children receive free 
and reduced lunches, 33 percent of our students are limited 
English proficient, 16 percent of our children receive special 
education services. And two-thirds are minority. It has not 
been because of changes, except that we all consider one 
another a family and we are responsible for one another's 
success.
    Now we have--the one factor that did change from 1998 
because materials and resources were available was that 
implementation of a strong character education initiative. 
There was a shared vision between administrator staff, office 
staff, the custodians, bus drivers. Every employee that touched 
the child came together to develop a program and institute 
character education into every aspect of the curriculum.
    As adults, we know that we must model what we expect from 
our children. In the morning, administrators and staff members 
greet the children as they come off the bus with a smile, a 
warm hello, and a hug.
    The children are welcomed into their classrooms and are 
given jobs so that they learn the sense of family and 
responsibility.
    During the day, teachers integrate character-building 
lessons into the language arts program. They are asked to read. 
When they read literature, they are asked to decide whether the 
character has made a good choice or bad decision. And they are 
also asked to determine whether that decision will impact 
others, and, if they were in that story, how would it impact 
them.
    In writing they use journals and other writing activities 
to have the children concentrate on responsibility and caring 
so that they become people that can determine whether or not 
these characteristics are important in life, and that they are.
    Cooperative learning activities are used throughout the 
day, especially in science and social studies where they learn 
that they must be responsible and that they are accountable to 
others; that what they do will determine the success of a 
project or an activity that they are learning.
    We also believe at Woodley Hills that it is extremely 
important to our children to know that we honor their opinions 
and that their concerns should be addressed. We give them an 
opportunity to share those concerns during class meetings that 
are held by each teacher, and at that time the children are 
allowed to express their concerns and to develop ability to 
solve problems.
    Now we have some of our fifth and sixth grade students 
utilize those skills on a daily basis as peer mediators, as 
student counsel representatives, as patrols. And we spend an 
exorbitant amount of time teaching the children how they should 
respond to such a civic responsibility and to honor that they 
have been chosen to represent their peers.
    Character education is also taught in P.E., arts and music, 
and I am so pleased to read about the The First Tee program and 
am very interested in trying to implement it now into our 
school because during P.E. We not only talk about sportsmanship 
and honoring rules, but they must respect their bodies. And 
there are notebooks which the children utilize to express goals 
for their health as well as an opportunity to discuss how they 
solve problems. So they often in those notebooks will write how 
they have completed a chore, how they have helped a family 
member, or how they have avoided a potentially negative 
situation that they have encountered in their neighborhood or 
with a family member or friend.
    Now, there is a wonderful sense of family and mutual 
respect at Woodley Hills, but we do have problems on occasions 
as every school will. But what we do to work through those 
problems is that we process through the issue with the child, 
because it is extremely important for them to learn about their 
mistakes and, more importantly, to avoid them again.
    Now, if a child does disrupt learning in the building, then 
they are asked to make amends for that disruption by providing 
some type of civic service to either the school or their 
classroom. We want to teach them that, again, we are 
responsible for one another.
    At Woodley Hills, character education has truly become part 
of our culture. We do not view the development of moral 
reasoning and character as a program or an isolated topic to 
teach. We feel and are very committed to integrating character 
education into every aspect of the school day.
    And due to the implementation of character education and 
sound teaching, we are proud to say that Woodley Hills has 
transformed into a successful school and the students, the 
parents, and the staff members are very pleased to call that 
home.
    In closing, I would like to share one final quote from one 
of our students. Again he was asked, Why is character education 
important? And he simply stated, Our school is a better, safer 
place because of character education. And I could not have 
answered that question better myself.
    Again, I thank you for your time and attention on such an 
important matter. And I hope we can continue this conversation. 
Thank you very much.
    Chairman McKeon. Thank you.
    [The prepared statement of Ms. Aldredge follows:]

  Prepared Statement of Sharon D. Aldredge, Principal, Woodley Hills 
                           Elementary School

    Good morning, Mr. Chairman and members of the Committee. First, I 
would like to commend you for taking the time to discuss such an 
important aspect of education. It is wonderful that you recognize what 
Socrates, Kohlberg, Lickona and so many others have taught us 
throughout the years; that is, the importance of developing moral 
character in our youth.
    Thank you for the honor of testifying on such an important topic. 
My name is Sharon D. Aldredge, and I have been an educator for fifteen 
years. I have spent the last two years of my career as principal of 
Woodley Hills ES in Fairfax County Public Schools, Virginia.
    I could share information on the positive results of character 
education initiatives in states such as South Carolina and California; 
however, I would like to offer a personal story. I can attest that the 
implementation of a strong character education initiative will affect 
every aspect of a school. By establishing a positive culture and 
climate, there will be an increase in test scores, grades and 
attendance rates. More importantly, children will learn skills that 
will enable them to be successful not only in school but in life. 
Students will become civically responsible members of their school 
communities as well as society.
    In 1998, Woodley Hills was considered an unsuccessful school. Only 
40 to 50 percent of our students were passing the Virginia Standards of 
Learning tests and suspensions were occurring once or twice a week. 
Woodley Hills was ranked as one of the bottom twenty schools in the 
division.
    After much discussion and debate, the administration, parents, 
staff and community members began a character education initiative, and 
there have been several noticeable changes in the school since the late 
1990s. In 2001, Woodley Hills was named a ``National School of 
Character'' by the Character Education Partnership organization. Eighty 
to ninety percent of our students have passed the Virginia Standards of 
Learning tests. Discipline problems are almost nonexistent in the 
school, with only three to five suspensions a year. Our children are 
happy to come to school, and they understand why we are teaching 
character education. Two students shared the following statements when 
asked if character education is important.
    ``Character education at this school is very important because 
character education is what keeps this school in order. It teaches us 
the importance of being respectful, responsible, trusting, caring, 
acting like a family member, and how to become a hardworking person 
when we're older. Character education also teaches us how to be kind to 
others, so that's why our school has character education.''
    ``I would say character education has made a very big difference 
here because a lot of kids in this school pay attention to their 
lessons and they respect themselves, others and property. A lot of kids 
in this school are well-behaved because we were taught what is right to 
do and what is wrong to do.''
    The success of the school has not been because of changes in our 
demographics. In fact, we receive funding from Title I, and we are 
classified as a school-wide program. Approximately 57 percent of our 
543 students receive free or reduced meals, and 2/3 of our student body 
are minority students. Thirty-three percent of our students are 
identified as Limited English Proficient, 16% receive special education 
services and 20% Gifted and Talented. Our students come from very 
diverse backgrounds and speak over 30 different languages; however, we 
view each other as family members, and we believe we are responsible 
for one another's success.
    It is important to note that there was a strong academic program 
with materials and resources available to teachers and students prior 
to 1998. The one factor that changed was the implementation of a 
character education initiative that involved every member of the school 
community. The students, office staff, custodians, parents, teachers, 
cafeteria employees and administrators developed a shared vision and 
became responsible for modeling and integrating character education 
into every aspect of the school environment.
    As adults, we model the behaviors we expect to see from our 
children. In the morning, administrators and staff members greet the 
children as they enter the building with a smile, hug, and a warm 
hello. The children are welcomed into their classrooms and are asked to 
complete jobs to build a sense of responsibility and family. During the 
day, the teachers integrate character building into lessons that are 
focused on the FCPS Program of Studies and the VA SOLs. When reading 
literature children are asked to determine if the character has made a 
``good choice'', or to determine how others in a story might be 
affected by the decisions that were made. Teachers also use journals or 
writing activities to encourage children to express the importance of 
respect, responsibilities and many other character traits. Cooperative 
learning activities are utilized to teach the children how our actions 
affect those around us and the importance of responsibility, trust and 
hard work. These attributes are taught during all content area; 
however, they are explicitly emphasized during science and social 
studies instruction.
    At Woodley Hills, we have also found that we must let our children 
know they are important and that we want to hear their opinions, so 
every teacher conducts class meetings. During these meetings, children 
have an opportunity to share their concerns and opinions, thus teaching 
the children how to advocate for themselves and speak up when they 
notice both positive contributions by their peers as well as areas 
where improvement is needed. The children are given the support they 
need to solve their own problems. Some of our fifth and sixth grade 
students are called upon to utilize such skills by serving as peer 
mediators, Student Council representatives, as well as safety patrols. 
We spend a great deal of time teaching our students how to handle such 
civic responsibilities.
    Character education is also taught in art, music, and physical 
education. In the respective subject areas, the children learn about 
famous artists, musicians, and athletes who have demonstrated exemplary 
character. In music, the children sing songs and learn skits focused on 
specific character traits. In physical education classes, children not 
only learn about good sportsmanship and honoring rules, they also learn 
how they must respect their bodies. One of our physical education 
teachers requires the students to keep a notebook in which they write 
down their health goals and how they demonstrate the character traits 
at home or school. The children often share how they have helped a 
family member, completed a chore, or how they avoided a potentially 
negative situation in the neighborhood or with a friend or family 
member.
    Although there is a wonderful sense of family and mutual respect in 
the school, there are problems on occasion. However, I can proudly 
state that 97% of our students never receive an office referral due to 
behavior. If a child does demonstrate a behavior problem, we take time 
to process through the issue with the student. It is important that the 
child learn from his or her mistake and more importantly learn how to 
avoid the same behavior again. If a child disrupts the learning of 
other students, he or she will often perform a service for the school 
or their class to make amends for their behavior.
    At Woodley Hills, character education is truly part of our school 
culture. We do not view the development of moral reasoning and 
character as a program or an isolated topic to teach. The staff is 
committed to integrating character education into every facet of the 
school day. Due to the implementation of character education and sound 
teaching, Woodley Hills has transformed into a school that the 
students, parents and staff can be proud to call home.
    In closing, I would like to share one final quote. When our fifth 
grade students were asked why character education is important to 
Woodley Hills, one young man simply answered, ``Our school is a better, 
safer place because of character education.'' I must say that I could 
not have answered the question better myself.
    Thank you for your time and attention to this most worthy topic.
                                 ______
                                 
    Chairman McKeon. Ms. Hogshead-Makar.

 STATEMENT OF NANCY HOGSHEAD-MAKAR, PROFESSOR AND OLYMPIC GOLD 
            MEDALIST, FLORIDA COASTAL SCHOOL OF LAW

    Ms. Hogshead-Makar. Thank you. Good morning, Mr. Chairman 
and members of the committee, I am Nancy Hogshead-Makar. I want 
to thank you for this opportunity to testify today regarding 
the importance of increasing opportunities for our children to 
participate in sports programs such as First Tee to build 
character, develop leadership skills, and enrich the health of 
all children. I ask my written statements attachments be 
included in the report.
    As a longtime advocate for asthmatics and for drug-free 
athletics environment as well as gender equity, it is 
heartening to me that other organizations are providing access 
to athletics as an opportunity to build life skills. The 
subject we are discussing is heavily researched. I provided you 
with copies of the Women's Sports Foundation Publication, Her 
Life Depends on It. It is a compilation of the best research on 
the impacts of sports participation on young children, but 
particularly on young girls. The results of this large body of 
research are stunning, while we in athletics have been exposed 
to the transformative nature of the sports experience. 
Athletics are a vital part of education. Success is a learned 
skill.
    I learned a lot about character and leadership development 
by getting into a cold pool every morning for 8 years, swimming 
800 laps a day, plus lifting weights and running on days that I 
did not want to, with every cell in my body. But I did it 
anyway because I was more committed to getting a particular 
result than to being in a good mood on any one particular day.
    The lessons that I took with me 22 years ago are the same 
ones available to every individual participating in athletics 
today. Research demonstrates the remarkable educational 
benefits that girls in particular derive from sports 
participation. No, it is not 100 percent, but it is certainly--
but participating is associated with marked differences in 
graduation rates, in grades; it seems to translate into 
business success.
    The long-term health benefits of a sports experience in 
high school are astounding. As little as 2 hours of aerobic 
activity a week reduces a woman's chance of getting breast 
cancer by 60 percent for the rest of her life. Diseases like 
osteoporosis and Alzheimer's also are deeply affected for the 
rest of one's life.
    Athletes are less like to engage in risky behaviors. They 
are less likely to be sexually active, to be pregnant, smoke, 
or use illicit drugs. There is also heightened mental health 
benefits. They are less likely to plan a suicide, have much 
lower rates of depression. In addition, this research suggests 
that failure to provide girls with athletic and fitness 
opportunities endangers the public health.
    One law this legislative body passed more than 34 years ago 
this week, Title IX, is responsible for impressive gains in 
opportunities for girls and women in athletic programs in every 
measureable criterion, including participation opportunities, 
athletic scholarships, operating budgets and recruiting 
expenditures. Gender equity in athletic departments is fueled 
by the longing for access to these same life-long skills and 
benefits that sports participants reach, the same ones lauded 
here today.
    Before Title IX was enacted, fewer than 32,000 young women 
took part in collegiate sports. Now it is 150,000. In high 
school that number has gone from 300,000 girls to over 2.8 
million. The law has provided girls and women with many 
sporting opportunities, and indeed my college athletic 
experience would not have happened but for Title IX.
    But even after 34 years, the playing field is still far 
from level. Women continue to lag behind men's athletic 
programs in every measurable criteria, including participation 
rates, scholarship dollars, operating budgets, recruiting 
expenses. There is still much that remains to be done.
    But despite the success that is directly attributable to 
Title IX, the gains that women have achieved through Title IX 
are in jeopardy. On March 17, 2005, the Department of Education 
announced its, quote, additional clarification. It contravenes 
the basic provisions of Title IX and its longstanding 
jurisprudence. The clarification allows schools to claim they 
are in compliance with Prong 3 by by gaging females' interest 
in athletics by just conducting one e-mail survey.
    Every legal authority, including the Department's own prior 
policies and regulations, agrees that surveying existing 
students is an inaccurate, biased, and invalid method of 
determining compliance to Title IX's Third Prong. Failure to 
respond to a survey in these days of excessive e-mail spam can 
be interpreted as a lack of interest in playing sports.
    Surveys also ignore the respect of recruiting and the self-
selection of athletes of existing desired sports programs.
    Since then, a wide array of organizations, including 
athletics, civil rights, and academic organization has called 
for the clarification to be rescinded. Opposing organizations 
include but are certainly not limited to the NCAA, the Women's 
Sports Foundation, the National Women's Law Center, the 
Leadership Conference on Civil Rights, the National Education 
Association, the YMCA and many college presidents, just to name 
a few.
    Of all of the things this committee could do to promote 
today's agenda to build character, their leadership skills, and 
health through athletic participation, none is more critical 
than to demand the Department of Education rescind this 
dangerous policy. Because the clarification directly conflicts 
with the goals that this committee is supporting here today, I 
respectfully urge further action in this regard.
    Over the 34 years of life of Title IX, it has enjoyed 
tremendous bipartisan support. Despite the fact that sports in 
girls and women have proven to be so beneficial, and despite 
the fact that girls' gains have not come at boys' expense, 
there is still a deeply destructive backlash against the 
promise of equity made in the law more than three decades ago.
    First the new policy dramatically weakens existing law and 
policy. Now they can use this survey alone. Before they had to 
consider many other factors such as they had to ask--they had 
to have interviews with students and coaches and 
administrators. They had to look at requests by other students 
to add a particular sport. They had to look at what the 
participation rates were in club sports and intramural sports. 
They had to look at participation rights in high school and 
amateur athletic associations that were operating in the area 
or community sports leagues from which the school draws its 
students. The clarification eliminates the need to look at 
these other factors.
    The surveys are likely to measure only the current 
discrimination that has limited or continues to limit sports 
opportunities for girls.
    If surveys have been permissible when I graduated from 
college in the late 1980's, quote, interest and ability would 
have been capped at the then-current rate of 25 percent rather 
than the 41 percent that collegiate women enjoy today; because 
if a girl has never been given the opportunity to participate, 
she is unlikely to fill out the form and say that she wants to 
participate; or, two, that she has already developed the skills 
to be ready to participate.
    To quote the movie in The Field of Dreams, If you build it 
they will come: I know of no instance in which a coach was 
hired, facilities were provided and a budget was provided and a 
coach was not able to fill that team.
    Instead, we need to be exposing all of our children to new 
academic topics and new--and new experiences so that they get 
to reap these benefits.
    Third, by allowing schools to restrict the surveys to 
enroll an admitted student, the clarification lets schools off 
the hook by having to measure interest broadly. The 
clarification ignores the reality that most students are 
recruited or, at the very least, self-selected.
    If Duke University had not had a swimming program, I would 
not have gone to Duke University. At the college level athletes 
are only rarely recruited from the existing student body but, 
rather, recruited from the Nation or country at large. It is no 
accident that Duke University has 7-foot basketball players 
walking around the halls. They don't just happen to enroll 
there. Duke goes out there and spends enormous resources to be 
able to do that. At the high school level, a couch finds 
students, with and without experience in his field, who is big 
enough and fast enough, and urges them to come out for the 
team. Now a, college that goes out and recruits male athletes 
from all over the country can eliminate the obligation to do 
the same for female athletes if female athletes fail to receive 
a response or e-mail survey.
    Now a high school is not obligated to encourage female 
athletes to come out for teams in the same way it encourages 
male athletes to come out for teams, so long as it administers 
an e-mail survey that does not generate sufficient response 
from the girls.
    Four, the clarification authorizes a flawed e-mail survey.
    Chairman McKeon. Are you just about done?
    Ms. Hogshead-Makar. Yes.
    For example, if a student doesn't respond, you can 
interpret that to mean they are not interested in sports. OK, 
this turns imperialism on its ear. Normally when you have a 
survey, a certain percentage of people respond and you take the 
results of whoever responded and extrapolate that out. You 
don't make it mean one way or another.
    For all of these reasons, the Department's new 
clarification represents a giant step backwards and thwarts the 
progress that women and girls have made for 34 years. If left 
in place to use by schools, the new clarification will lead to 
reduction in opportunities for our Nation's daughters.
    We call on this Congress to do everything within its power 
to make sure this does not happen. The most effective action 
this committee can take to promote today's agenda to build 
character, leadership skills, and health through athletic 
participation, none would be more effective than to determine 
the Department of Education rescind its additional 
clarification. Because the clarification directly conflicts 
with the goals that this committee is supporting today, I 
respectfully urge for you to take action. Thank you.
    Chairman McKeon. Thank you.
    [The prepared statement of Ms. Hogshead-Makar follows:]

Prepared Statement of Nancy Hogshead-Makar, Professor, Florida Coastal 
   School of Law, Former President of the Women's Sports Foundation, 
                            Olympic Champion

    Mr. Chairman and Members of the Committee: Good Morning, I am Nancy 
Hogshead-Makar. Thank you for providing me with the opportunity to 
testify today regarding the importance of increasing opportunities for 
our children to participate in sports as an exercise in building 
character, developing leadership skills, and enriching the health of 
all children. I ask that my written statement and attachments be 
included in the record.
    The subject we are discussing today is important. The mission of 
the First Tee, ``To impact the lives of young people by providing 
learning facilities and educational programs that promote character 
development and life-enhancing values through the game of golf''--is 
one with which every sports advocate would agree. As a long-time 
advocate for asthmatics and for a drug-free athletics environment as 
well as gender equity, it is heartening to me that other organizations 
are providing access to athletics as an opportunity to build life 
skills.
    The subject we are discussing is also heavily researched. While we 
in athletics have long espoused the transformative nature of a sports 
experience, there is substantial empirical evidence to support that 
what we've known intuitively: Athletics are a vital part of education. 
Sports participation teaches young people critical lessons, including 
how to set goals and work to achieve them, how to win and lose 
gracefully, how to postpone short term gratification for long term 
rewards, how to perform under pressure, how to function as part of a 
team, and how to take criticism. Student-athletes develop self-
confidence, perseverance and a desire to succeed.
    Representing my country for eight years on the United States 
National Team was a tremendous source of pride. But the most valuable 
prizes from all those years are not my Olympic Gold Medals. Standing on 
the victory stand was an exceedingly proud moment, but the real value 
to me was in those life lessons. Success is a learned skill. World-
class training in my sport at that time involved swimming an incredible 
800 laps per day, plus lifting weights and running, 6 days a week. From 
seventh grade until I graduated from high school, I woke up at 4:45 to 
get ready for a 5:30--7:30am practice. I learned a lot by getting into 
that cold pool on days when every cell in my body wanted to be 
elsewhere. I did it because I was more committed to doing something 
significant with my life than I was to being in a good mood on any one 
particular day. Seeing what I could achieve became my own noble 
purpose. The lessons I took with me 22 years ago are the same ones 
available to every kid participating in athletics today.
    I have provided to you copies of the Women's Sports Foundation's 
publication, ``Her Life Depends on It'', a compilation of the best 
research on the impact of sports participation on young children, but 
particularly young girls. The results of this large body of research 
show that sports participation and physical activity are fundamental 
solutions for many of the serious health and social problems faced by 
American girls.
    For example, research confirms that participation in athletics is 
associated with academic success. Contrary to the ``dumb jock'' myth, 
interscholastic sports participation provides both boys and girls from 
diverse socioeconomic, race and ethnicity backgrounds measurable 
positive educational impacts, including improvements in self-concept, 
higher educational aspirations, improved school attendance, increased 
math and science enrollment, more time spent on homework, and higher 
enrollment in honors courses. H.W. Marsh, The Effects of Participation 
in Sport During the Last Two Years of High School, SOCIOLOGY OF SPORT 
J. 10:18-43 (1993).
    The educational benefits girls, in particular, derive from sports 
participation are stunning. For example, female student-athletes have 
higher grades and higher graduation rates than their non-athletic 
peers. NCAA graduation rates for women remain high--68% compared to 58% 
for the Division I female student body. See 2001 NCAA Graduation Rates 
Report, available at http://www.ncaa.org/grad--rates/2001/index.html. 
In high school, both white and black female student-athletes graduated 
at rates higher than their student-body counterparts. See Nat'l Fed'n 
of State High School Ass'ns, The Case for High School Activities 
(2004), available at http://www.nfhs.org/scriptcontent/Va--custom/va--
cm/contentpagedisplay.cfm?content --ID=71&SearchWord=case%20high% 
20school%20activities (A state-wide, three-year study by the North 
Carolina High School Athletic Association found that athletes had 
higher grade point averages (by almost a full grade point), lower 
dropout rates, and higher high school graduation rates, than their non-
athletic peers); see also Richard E. Lapchick, Keeping Score When it 
Counts: Graduation Rates and Diversity in Campus Leadership for the 
2004 Women's Sweet 16 Teams, University of Central Florida's Institute 
for Diversity and Ethics in Sports (March 2004) (study showing that 
female athletes in the national basketball tournament had exceedingly 
high graduation rates).
    These educational benefits appear to translate into business 
success. A recent study by the Oppenheimer Fund found that more than 
four out of five executive businesswomen (81%) played sports growing 
up--and the vast majority reported that the lessons they learned on the 
playing field have contributed to their success in business. New 
Nationwide Research Finds: Successful Women Business Executives Don't 
Just Talk a Good Game * * * They Played One (2002), available at http:/
/www.massmutual.com/mmfg/pdf/boardroom.pdf. The business of sports, 
including athletic administration, coaching, sports management, sports 
medicine, marketing and manufacturing, is a nearly $200 billion per 
year industry.\4\ Sports Bus. J. 47 (March 2002), available at http://
www.sportsbusinessjournal.com/images/random/SportsIndustry.pdf. A 
common gateway into a career in the sports industry is having 
significant sports experience on one's resume.
    The life-long health benefits of an adolescent sports experience 
are as dramatic as the academic benefits. The risks for girls and women 
appear daunting.
    <bullet> Obesity: In 1970, only one out of every 21 girls was obese 
or overweight; today that figure is one in six. (National Center for 
Health Statistics, 2002).
    <bullet> Heart Disease: Cardiovascular disease is the number-one 
cause of death among American women (44.6% of all deaths), and the 
death rate is 69% higher for black women than for white women (American 
Heart Association, 2003).
    <bullet> Cancer: Breast cancer is the most common cancer among 
women, accounting for nearly one of every three cancers diagnosed in 
American women (Jemal et al, 2004).
    <bullet> Osteoporosis: Of the 10 million Americans estimated to 
have osteoporosis, eight million are women. (National Osteoporosis 
Foundation, 2003).
    <bullet> Tobacco Use: In grades 9-12, 29.5% of female students 
report current tobacco use. (Centers for Disease Control and 
Prevention, 2002).
    <bullet> Drug Use: Thirty-eight percent of 12th-grade girls and 18% 
of eighth-grade girls have used an illicit drug at least once during 
the past year (Johnston, O'Malley and Bachman 2002).
    <bullet> Sexual Risk: About 1/4 of sexually active adolescents are 
infected with a sexually transmitted disease each year (Kirby, 2001).
    <bullet> Teen Pregnancy: The United States has the highest teen 
pregnancy and birth rates in the industrialized world. About 80% of 
teen pregnancies are unintended (National Campaign to Prevent Teen 
Pregnancy, 2002).
    <bullet> Depression: By age 15, girls are twice as likely as boys 
to have experienced a major depressive episode. This gender gap 
continues for the next 35 to 40 years, until menopause (Cyranowski et 
al, 2000).
    <bullet> Suicide: In 2001, about one in four U.S. high school girls 
seriously considered suicide, and one in 10 actually
    attempted to kill herself (National Center for Health Statistics, 
2003).
    <bullet> Pathogenic Weight Loss Behavior: Over 90% of victims of 
eating disorders are female, and 86% report onset by age 20 (National 
Association of Anorexia Nervosa and Associated Disorders, 2004).
    These issues account for much of the more than $1 trillion spent on 
healthcare for treating these issues. The available research 
demonstrates that more physical activity and sports participation are 
fundamental solutions for many of these serious health and social 
problems faced by our nation's young girls. See Her Life Depends On It, 
at 38. For example, women who participated in regular physical exercise 
during their reproductive years have up to a 60% reduced risk of breast 
cancer. See Leslie Bernstein, et al., Physical Exercise and Reduced 
Risk of Breast Cancer in Young Women, 86 J. Nat'l Cancer Inst. 1403 
(1994) (reporting that one to three hours of exercise per week over a 
woman's reproductive lifetime may bring a 20-30% reduction in the risk 
of breast cancer, and four or more hours of exercise per week may 
reduce the same risk by almost 60%). Physical activity and sports 
participation in the school-age years have been shown to increase bone 
density to prevent osteoperosis. D. Teegarden, et al., Previous 
Physical Activity Relates To Bone Mineral Measures In Young Women, 28 
Med. & Sci. in Sports & Exercise 105 (Jan. 1996). Higher levels of 
physical activity earlier in life may reduce the risk for Alzheimer's 
later in life. See Sandra K. Pope, et al., Will a Healthy Lifestyle 
Help Prevent Alzheimer's Disease?, 24 Annual Review of Public Health, 
111 (2003). These results suggest that implementation of regular 
physical exercise programs as a critical component of a healthy 
lifestyle should be a high priority for adolescent and adult women.
    Female athletes are also less likely to engage in risky behaviors. 
Female athletes are less likely to become pregnant as teenagers than 
their non-athlete counterparts. See T. Dodge and J. Jaccard, 
Participation in Athletics and Female Sexual Risk Behavior: The 
Evaluation of Four Causal Structures, 17 Journal of Adolescent Research 
42 (2002); The President's Council on Physical Fitness and Sports 
Report, Physical Activity & Sports in the Lives of Girls, (Spring 
1997), available at http://education.umn.edu/tuckercenter/pcpfs/
default.html (citing to studies suggesting that higher rates of 
athletic participation among adolescent girls were significantly 
associated with lower rates of both sexual activity and pregnancy). 
They are also less likely to smoke or use illicit drugs. See, e.g., 
M.J. Melnick et al., Tobacco Use Among High School Athletes And 
Nonathletes: Results Of The 1997 Youth Risk Behavior Survey, 36 
Adolescence 727 (2001); see also Wyoming High School Activities Ass'n, 
Student Activities Survey (1998) (finding that only 25% of high school 
athletes, compared to 40% of non-athletic high school students, smoke 
cigarettes); K.E. Miller et al., The Women's Sports Foundation Report: 
Health Risks and the Teen Athlete, 1, 8 (2000) available at http://
www.womenssportsfoundation.org/binary-data/WSF--Article/pdf--file/
771.pdf. (national study finding that female athletes, especially white 
female athletes, involved in school or community sports were 
significantly less likely to use marijuana, cocaine or most other 
illicit drugs); R.R. Pate et al., Sports Participation and Health-
Related Behaviors Among U.S. Youth, 154 Archives of Pediatric & 
Adolescent Med. 904 (2000) (same); The Case for High School Activities, 
(concluding that 92% of high school athletes do not use drugs).
    Additionally, Athletic participation is also associated with 
heightened mental health benefits. Female high school athletes show a 
markedly lower incidence of considering or planning a suicide attempt, 
and women and girls who participate in regular exercise suffer lower 
rates of depression. See Don Sabo et al., High School Athletic 
Participation and Adolescent Suicide: A Nationwide Study, International 
Review for the Sociology of Sport (2004); G. Nicoloff, and T.S. 
Schwenk, Using Exercise to Ward Off Depression, 9 Physician Sports Med. 
23, 44-58 (1995); R.M. Page & L.A. Tucker, Psychosocial Discomfort and 
Exercise Frequency: An Epidemiological Study of Adolescents, 29 
Adolescence, 113, 183-91 (1994) (suggesting that physically active 
adolescents tend to feel less lonely, shy, and hopeless as compared to 
their less physically active peers). Indeed, this research suggests 
that the failure to provide girls with athletic and fitness 
opportunities endangers the public health. See Her Life Depends On It, 
at 5.
    One law this legislative body passed more than 34 years ago last 
week--Title IX--is responsible for impressive gains in opportunities 
for girls and women in athletics. Gender equity in athletic departments 
is fueled by the longing for access to these life-long skills and 
benefits that sports participants reap, the same ones lauded here 
today. Before Title IX was enacted, fewer than 32,000 young women took 
part in collegiate sports. Now more than 150,000 take part. In high 
school, the number has gone from 300,000 girls to over 2.8 million.\1\ 
This law has proven to provide girls and women with sporting 
opportunities.
    But even after 34 years, the playing field is still far from level. 
Women's athletic programs continue to lag behind men's athletic 
programs in every measurable criterion, including participation 
opportunities, athletic scholarships, operating budgets and recruiting 
expenditures. Much remains to be done. For example, although on average 
women are 54% of the students in colleges, they receive only 43% of the 
sports participation opportunities, 38% of athletic operating dollars 
and 33% of the money spent on recruitment.\2\ At the high school level, 
girls represent only 42% of varsity athletes.\3\
    Moreover, the gains that women have achieved through Title IX are 
in jeopardy. On March 17, 2005, the Department of Education announced 
its ``Additional Clarification'' of its policy for collegiate 
compliance with Title IX in athletic programs. It issued the 
``Clarification'' without any public input or comment, merely posting 
it on its website on a Friday afternoon. The ``clarification'' is a 
terrible step backward that undermines the values of the mission of 
sports opportunities for both genders. In this regard, I am joined by 
more than 100 organizations who have called for the Department's 
``Clarification'' to be rescinded. These organizations include the 
NCAA, the National Coalition for Women and Girls in Education, and many 
college presidents. Of all the things this Committee could do to 
promote today's agenda--to build character, leadership skills and 
health through athletics participation--none is more critical than to 
demand that the Department of Education rescind its recent ``Additional 
Clarification'', which undermines the provision of full and fair 
opportunities in athletics. Because the ``Clarification'' directly 
conflicts with the goals that this Committee is supporting today, I 
respectfully urge further action in this regard.
    Over the 34-year life of Title IX, it has enjoyed tremendous bi-
partisan support. The framers of the legislation (and later the 
guidelines governing athletics) understood that requiring equality in 
educational opportunities in sports programs could not happen 
overnight, and that is the reason why the current guidelines and the 
three-part participation test are crafted the way they are. The 
guidelines and the test are flexible and fair. But Title IX has also 
been under constant attack and scrutiny since it was enacted, and today 
is unfortunately no different. Despite the fact that sports for girls 
and women have proven to be so beneficial--and despite the fact that 
the evidence shows that girls' gains have not come at boys' expense--
there is still a deeply destructive backlash against the promise of 
equality made in the law more than three decades ago.
    In June 2002, a 15-member commission was appointed by Secretary of 
Education Roderick Paige to review opportunities in athletics. The 
Department spent a year and about $700,000 of taxpayers' money to come 
up with 23 recommendations.4 Although a USA Today/CNN/Gallup poll 
conducted during the Commission's tenure indicated that seven of ten 
adults who are familiar with Title IX think the federal law should be 
strengthened or left alone,\5\ many of the Commission's ultimate 
recommendations would have seriously weakened Title IX's protections 
and substantially reduced the opportunities to which women and girls 
are entitled under current law.
    For this reason, and because the Commission's report failed to 
address key issues regarding the discrimination women and girls still 
face in obtaining equal opportunities in athletics, Co-Commissioners 
Julie Foudy and Donna DeVarona released a Minority Report because their 
positions were not included in the final report.\6\ The Minority Report 
pointed out that Title IX athletics policies have been critical in the 
effort to expand opportunities for women and girls, have been in place 
through Republican and Democratic Administrations, and have been upheld 
unanimously by the federal appellate courts. In addition, advances for 
women and girls have not resulted in an overall decrease in 
opportunities for men; in the cases where men's teams have been cut, 
moreover, budgetary decisions and the athletics ``arms race'' are the 
true culprits. Even Myles Brand, President of the NCAA, has testified 
that revenue-producing sports in big-time colleges are to blame for 
current budget problems in colleges. Based on these findings, the 
Minority Report recommended that the current Title IX athletics 
policies not be changed but enforced to eliminate the continuing 
discrimination against women and girls in athletics. It also 
recommended that schools and the public be educated about the flexible 
nature of the law, reminded that cutting men's teams to achieve 
compliance is not necessary or favored, and encouraged schools to rein 
in escalating athletics costs to give more female and male athletes 
chances to play.
    Instead of implementing any of the 23 recommendations, the outcome 
of this lengthy and costly Opportunity in Athletics debate was that the 
Department of Education laudably rejected the Commission's proposals 
and strongly reaffirmed the longstanding Title IX athletics policies. 
In its July 11, 2003 ``Further Clarification of Intercollegiate 
Athletics Policy Guidance Regarding Title IX Compliance,'' \7\ the 
Department of Education stated: ``After eight months of discussion and 
an extensive and inclusive fact-finding process, the Commission found 
very broad support throughout the country for the goals and spirit of 
Title IX. With that in mind, OCR today issues this Further 
Clarification in order to strengthen Title IX's promise of non-
discrimination in the athletic programs of our nation's schools.'' The 
document goes on to say that Title IX's three-part participation test 
provides schools with three separate ways to comply and that nothing in 
that test requires or encourages schools to cut men's teams; it also 
promised that OCR would aggressively enforce the longstanding Title IX 
standards, including implementing sanctions for institutions that do 
not comply.
    However, less than two years after strongly reaffirming the 
longstanding Title IX athletics policies, and without any notice or 
public input, the Department of Education did an about-face and posted 
on its website, late in the afternoon of Friday, March 17, 2005, a new 
Title IX policy that threatens to reverse the enormous progress women 
and girls have made in sports since the enactment of Title IX.\8\ This 
new policy, called an ``Additional Clarification,'' creates a major 
loophole through which schools can evade their obligation to provide 
equal sports opportunities to women and girls. The Clarification allows 
schools to gauge female students' interest in athletics by doing 
nothing more than conducting an e-mail survey and to claim--in these 
days of excessive e-mail spam--that a failure to respond to the survey 
shows a lack of interest in playing sports. It eliminates schools' 
obligation to look broadly and proactively at whether they are 
satisfying women's interests in sports, and will thereby perpetuate the 
cycle of discrimination to which women have been subjected. The new 
Clarification violates basic principles of equality, as I explain 
further below.
    It is deeply troubling that the Department would change its 2003 
stated position, in which it reaffirmed the longstanding Title IX 
policies and pledged to enforce them. Instead, the Department of 
Education has unilaterally adopted this dangerous new policy without 
public announcement or opportunity for public comment. To fully 
understand why this new Clarification is so dangerous, it is important 
to review the relevant longstanding Title IX athletics policies. Title 
IX requires schools to provide males and females with equal sports 
participation opportunities. A 1979 Policy Interpretation elaborates on 
this requirement by providing three independent ways that schools can 
meet it--by showing that:
    <bullet> The percentages of male and female athletes are about the 
same as the percentages of male and female students enrolled in the 
school (the ``proportionality'' prong); or
    <bullet> The school has a history and continuing practice of 
expanding opportunities for the underrepresented sex--usually women; or
    <bullet> The school is fully and effectively meeting the athletic 
interests and abilities of the underrepresented sex.\9\
    The Department's new Clarification allows schools not meeting the 
first or second prongs--that is, schools that are not providing equal 
opportunities to their female students and that have not consistently 
improved opportunities for them--to show that they are nonetheless in 
compliance with Title IX by doing nothing more than sending a ``model'' 
e-mail survey to their female students asking about their interest in 
additional sports opportunities.
    This new policy would dramatically weaken existing law and policy. 
First, it allows schools to use surveys alone to demonstrate compliance 
with the law. Under prior Department policies, schools had to consider 
many other factors besides surveys to show compliance with prong three, 
including: requests by students to add a particular sport; 
participation rates in club or intramural sports; participation rates 
in sports in high schools, amateur athletic associations, and community 
sports leagues in areas from which the school draws its students; and 
interviews with students, coaches, and administrators.\10\ The new 
Clarification eliminates the obligation to consider these important 
criteria.
    Second, surveys are likely to measure only the current 
discrimination that has limited, and continues to limit, sports 
opportunities for women and girls. If surveys had been permissible when 
I graduated from college, in the late 1980s, ``interest and ability'' 
would have been capped the then-current rate of 25%, rather than the 
41% collegiate women enjoy today. If a girl has never been given the 
opportunity to participate, she is unlikely to respond favorably to a 
survey. To quote the movie Field of Dreams, ``If you build it, they 
will come.'' I know of no instance in which a high school or college 
started a varsity women's team, hired a coach and then had the coach 
return his or her paycheck because he or she could not find enough 
women to play. Courts, too, have recognized that interest cannot be 
measured apart from opportunity.\11\ The new Clarification is 
particularly damaging for students in high school, where female 
students are likely to have had even fewer sports opportunities to gain 
experience prior to being surveyed. Instead, like exposure to new 
academic topics, all students should be encouraged to try many 
different sports to take advantage of the many health, economic, 
academic and leadership opportunities that we are addressing today, and 
not have their opportunities limited by what they might have already 
experienced.
    Third, by allowing schools to restrict surveys to enrolled and 
admitted students, the Clarification lets schools off the hook from 
having to measure interest broadly. The Clarification ignores the 
reality that most student athletes are recruited--or, at the very 
least, that students self-select based on what a school is offering. If 
Duke University had not had a swimming program, I would not have 
applied to attend. At the college level, athletes are only rarely 
recruited from the existing student body, but rather are recruited from 
the region or country at large. It is no accident that Duke has seven-
foot tall basketball players walking the halls. It spends enormous 
resources to make sure that it attracts the top talent from all over 
the country. At the high school level, the coach finds students with 
and without experience or skill who are big enough or fast enough and 
urges them to come out for the team. Now, a college that goes out and 
recruits male athletes from all over the country can eliminate the 
obligation to do the same for female athletes if female students fail 
to receive or respond to an e-mail survey. Now, a high school is not 
obligated to encourage female athletes to come out for teams in the 
same way it encourages male athletes to come out for teams, so long as 
it administers an e-mail survey and does not generate sufficient 
response from the girls.
    Fourth, the Clarification authorizes flawed survey methodology. As 
one example, schools may e-mail the survey to all female students and 
interpret a lack of response as evidence of lack of interest. The 
Clarification reads, ``Although rates of nonresponse may be high with 
the e-mail procedure, under these conditions, OCR will interpret such 
nonresponse as a lack of interest.'' Experts in survey methodology 
confirm that inferring nonresponses as ``no interest'' turns survey 
empiricism on its ear. A general rule of thumb is that only a small 
percentage of persons who receive a survey respond to it. The results 
of the respondents are then generalized to the population of interest. 
If half of the respondents indicated they were interested in sports, 
then the school should assume that half of the female students are 
interested. For bias demonstrative purposes, reverse the OCR approach. 
A school would send out an e-mail survey and ask students if they have 
NO interest in a given sport. Nonresponses would then be interpreted as 
affirmative interest. Additionally, many high school and college 
athletes lack access to e-mail. The Clarification will allow schools to 
avoid adding new opportunities for women even where interest does in 
fact exist on campus.
    Fifth, the new Clarification shifts the burden to female students 
to show that they are entitled to equal opportunity. The survey creates 
a presumption of compliance with Title IX, as long as the school has 
not recently dropped a women's team or had a recent request for 
elevation of women's club sport to varsity status. Once the survey is 
administered, the burden of demonstrating compliance shifts from the 
college or school to the athlete, a difficult legal hurdle for an 
athlete to surmount. It will be the rare student who will attend a 
school and then be prepared to surmount such a legal high hurdle.
    Finally, the Department's new policy does not even require that the 
Office for Civil Rights monitor schools' use of the survey to ensure 
that they meet minimal requirements for survey use or interpret the 
results accurately.
    In summary, the Clarification and ``model survey'' contravene the 
basic principles of Title IX and its long-standing jurisprudence. Every 
legal authority--including the department's own prior policies and 
interpretations--agrees that surveys of existing students are an 
inaccurate, biased, and invalid method of determining compliance under 
Title IX's third prong. Surveys ignore the effect of recruiting and the 
self-selection of athletes with existing desired sports programs. Yet 
the Department's letter and ``model survey'' contravene the law's very 
purpose by further disadvantaging women via a biased and rejected 
methodology.
    Since then, a wide array of organizations, including athletic, 
civil rights, and academic organizations have continued to object to 
the Clarification on a number of grounds.\12\ Opposing organizations 
include the NCAA, the Women's Sports Foundation, the National Women's 
Law Center, the Leadership Conference on Civil Rights, the National 
Education Association, and the YMCA, to name a few.\13\
    In response to a Senate Appropriations Committee request, the 
Department prepared a report in March of 2006 that was to respond to 
the substantial negative public response to the Clarification. 
Unfortunately, the Department of Education's report does not change 
even the most glaring problems with the Clarification, such as allowing 
e-mail survey non-responses to be interpreted as lack of interest. The 
report only re-confirms that its controversial Clarification is a 
seismic change in course and that schools can shun their fundamental 
responsibility of offering equal athletic opportunities for women, in a 
manner never before permitted.
    For example, the Department's new report concludes that for the 14 
year study period, the Department's Office for Civil Rights (OCR) has 
never allowed a school or university to rely upon a survey alone to 
deny women additional sports opportunities. Moreover, the report found 
that most schools considered many factors other than surveys in 
determining the extent of women's interest in sports, such as 
participation in high school and community sports, coaches' opinions 
and participation in club or intramural sports. The report documents 54 
cases where schools attempted to justify low numbers of athletic 
opportunities for women under Prong 3, which is an assertion that the 
school is providing all the interested women with opportunities to 
participate in athletics. These schools relied on surveys and other 
indicators, and when the previously-required factors were considered, 
the schools were ultimately required to add a total of 70 new women's 
athletic teams. Additionally, in each of the six cases where schools 
attempted to use interest surveys alone to assert compliance under 
Prong 3, the OCR rejected each claim of compliance. Again, when the OCR 
evaluated the previously-required additional factors, they found that 
women were interested in more participation opportunities at these 
schools. In short, the new report supports the obvious conclusion that 
interest surveys alone are woefully inadequate at showing the extent of 
interest that truly exists on a campus. The report highlights the low 
response rates of surveys, and that the OCR's active intervention is 
necessary to ensure full Title IX compliance. The Clarification, of 
course, imposes no such requirement.
    In summary, the overwhelming evidence--including the Department's 
own new report on the Clarification--demonstrates the Clarification's 
serious methodological flaws, which have been exposed by commentators, 
interest groups, and prior judicial decisions. As Neena Chaudhry, 
senior counsel at the National Women's Law Center said in response to 
the report, ``The report confirms that the Department set too low a bar 
for Title IX compliance--and that that standard is unprecedented in 
OCR's enforcement efforts. The Department of Education should rescind 
the policy and instead focus on enforcing the law so that women can 
finally enjoy equal athletic opportunities at our nation's schools and 
colleges and universities.''
    For all these reasons, the Department's new Clarification 
represents a giant step backwards and thwarts the progress that women 
and girls have made in the past 34 years. If left in place and used by 
schools, the new Clarification will lead to a reduction in 
opportunities for our nation's daughters. We call on this Congress to 
do everything within its power to ensure that this does not happen. The 
most effective action this Committee can take to promote today's 
agenda--to build character, leadership skills and health through 
athletics participation--none would be more effective than to demand 
that the Department of Education rescind its recent ``Additional 
Clarification.'' Because the ``Clarification'' directly conflicts with 
the goals that this Committee is supporting today, I respectfully urge 
you to take action.

                                ENDNOTES

    \1\ National Collegiate Athletic Association (NCAA), 1982-2002 
Sponsorship and Participation Report 65, available at http://ncaa.org/
library/research/participation--rates/1982-2002/participation.pdf; 
National Federation of State High School Associations (NFHS), 2002 High 
School Athletics Participation Survey, available at http://
www.nfhs.org/nf--survey--resources.asp.
    \2\ NCAA, 2002-03 Gender Equity Report (2004).
    \3\ NFHS, 2002 High School Athletics Participation Survey.
    \4\ See ``Open to All'': Title IX at Thirty, The Secretary of 
Education's Commission on Opportunity in Athletics, Feb. 28, 2003, 
available at http://www.ed.gov/about/bdscomm/list/athletics/
report.html.
    \5\ Erik Brady, ``Poll: Most adults want Title IX law left alone,'' 
USA TODAY, Jan. 7, 2003.
    \6\ See Minority Views on the Report of the Commission on 
Opportunity in Athletics, Report Submitted by Donna de Varona and Julie 
Foudy, Feb. 2003.
    \7\ Office for Civil Rights, United States Department of Education, 
``Further Clarification of Intercollegiate Athletics Policy Guidance 
Regarding Title IX Compliance,'' July 11, 2003.
    \8\ Office for Civil Rights, United States Department of Education, 
``Additional Clarification of Intercollegiate Athletics Policy: Three-
Part Test ? Part Three,'' Mar. 17, 2005.
    \9\ United States Department of Health, Education, and Welfare, 
Office for Civil Rights, Title IX of the Education Amendments of 1972; 
a Policy Interpretation; Title IX and Intercollegiate Athletics, 44 
Fed. Reg. 71,413 (December 11, 1979).
    \10\ United States Department of Education, Office for Civil 
Rights, Clarification of Intercollegiate Athletics Policy Guidance: The 
Three-Part Test (Jan. 16, 1996).
    \11\ Cohen v. Brown University, 101 F.3d 155, 179-80 (1st Cir. 
1996).
    \12\ Academic experts, in particular, have listed the flaws in the 
Clarification. See ``The Center for Research on Physical Activity, 
Sport & Health (CRPASH) report on the Limitations of the Department of 
Education's Online Survey Method for Measuring Athletic Interest and 
Ability on U.S.A. Campuses'' at http://www.dyc.edu/crpash/limits--of--
online--survey.pdf
    \13\ A more complete listing of supporting organizations can be 
found at: http://www.savetitleix.com/who.html
                                 ______
                                 
    Chairman McKeon. There has been a vote called on the floor. 
I will begin questioning. Those of you who would like, if you 
would like to go over and vote and come back, I am not planning 
on recessing. We will just work through this. There is just one 
vote.
    Mr. Nicklaus, since you testified before the committee 4 
years ago, there has been a lot of growth in the number of 
students participating in the program. I would like to know to 
what do you attribute this growth and have other youth programs 
sought to replicate some of the same things that you are doing 
in building character, and do you think that then actually you 
are beyond the 780--what were those numbers again, the 760,000? 
You probably reached more students by other organizations 
picking up some of these same methods.
    Mr. Nicklaus. I think so. I think that the support of that 
information is better behind me. Len Stachitas can answer that 
question better than I can, I think.
    Mr. Stachitas. We have partnerships with many youth service 
organizations include the Boys and Girls Clubs, YMCAs, and so 
the values that we are teaching, while the kids come to The 
First Tee, they get it directly. They carry those back to their 
other organizations as well. And we are now working on a 
program to export our curriculum in to boys' and girls' clubs, 
YMCAs, to youngsters who don't have to come to us, but we can 
take The First Tee to them.
    Chairman McKeon. Is funding one of the limiting factors in 
your growth, or have you been able to raise all of the money 
you need to move forward?
    Mr. Nicklaus. I don't think I need to ask him for that. If 
funding wasn't a limiting factor----
    Chairman McKeon. I seem to find that in about whatever----
    Mr. Nicklaus. Whatever we do.
    The ability to be able to build facilities, to be able to 
bring people into the programs, obviously takes money. And to 
be able to reach all of these kids to do the things that we 
need to do is very difficult to do it without funding. I mean, 
it has been funded privately, to a large degree, and also with 
help from you over the last few years; but to continue to reach 
more kids, to continue to expand, obviously finances are 
needed.
    Chairman McKeon. Thank you.
    Ms. Aldredge, you know we have talked a lot around here 
about teachers and how important they are in the classroom. We 
don't talk enough, I don't think, about principals and how 
important they are.
    When I go onto a campus, I can tell if there is a good 
principal. You just feel it. You feel it in the classroom. You 
feel it from the children as they walk around, and their 
response to the principal.
    You are really to be commended for what you have done on 
your campus. How did you get your parents, your faculty, as you 
said, everybody on the campus participating? How did you do it?
    Ms. Aldredge. Actually, unfortunately, I wasn't there at 
the school when they started in 1998 but was very good friends 
with the former principal. But what they did was to have a 
retreat where they brought in staff members, I think over a 2-
day period of time. Every member of the staff and community 
that wanted to be involved came together. They brainstormed. 
What they wanted their children to have in their future, how 
they wanted to be as adults, and then we--they sat down and 
they developed the curriculum and the atmosphere that they 
wanted to implement for the children.
    From that point, we have continued to do that. I have a lot 
of parents involved on committees and a lot of just general 
conversations when they come in the building, because a lot of 
our parents are working parents, so they do have a difficult 
time coming in during the day. But it is the main focus every 
time we have a staff meeting, every time an e-mail is out, we 
discuss the impact of television, of radio, of their 
neighborhoods, of their environments, and how can we counteract 
that.
    And then also--I have to be honest--when I interview 
teachers, I look for those characteristics in the teachers that 
we bring into the building to make sure that we continue that 
philosophy and that motivation and that energy within the 
staff. And we have the children--probably shouldn't say--but 
our children truly believe and they also would come with 
suggestions to me. So we truly do advocate for them to speak 
up, and they bring suggestions and thought.
    Chairman McKeon. So the whole community has bought into----
    Ms. Aldredge. The whole community has bought into this. I 
know it is difficult because we have been doing this since 
1998, and I have heard of other schools where it has dwindled 
off and it is because we keep that energy going throughout the 
community.
    Chairman McKeon. Thank you very much.
    Ms. Woolsey.
    Ms. Woolsey. Let us talk about funding. The House Labor-HHS 
appropriations bill that passed committee just a couple weeks 
ago cuts P.E. Funding from $72 million a year to $26 million. 
This is a 63 percent decrease. So let us--Professor Hogshead-
Makar, why don't you talk about how that affects Title IX?
    Ms. Hogshead-Makar. Well, P.E. Is--in many cases is the 
gateway to response participation. It is a way the kids learn 
the basic skills: how to hit a ball, throw a ball, how to work 
in cooperation in teams. It's usually what they do in the 
elementary school levels and in junior high school before they 
get into the teams on high school. It gives them those 
fundamental skills. Obesity right now is an enormous problem in 
this country, and girls in particular suffer more obesity and 
they have a greater problem with obesity.
    So, you know, if we don't have those feeder programs that 
lead up to the high schools and colleges, then you know it is 
just one more step behind that all of our children are going to 
be. I mean, that is a problem for, again, for all of our 
children. It is not--doesn't affect one race or one 
socioeconomic group or one--you know, it affects everybody, 
boys and girls, and that is a very big problem. We really need 
to have P.E. In the schools because health--it is hard to do a 
lot else in your life when you don't have your health.
    Ms. Woolsey. So, Mrs. Aldredge, you are the feeder school. 
And you have given testimony about the importance of good 
sports programs and the role they play in character and health 
and self-confidence. What happens to your school when there 
isn't sufficient funding for P.E. classes?
    Ms. Aldredge. That is a very good question, and I could see 
that we would have great difficulty in the building. And not 
just so much the P.E., but it would not give the children an 
opportunity to sort of venture out into the sports--organized 
sports youthful organizations probably. We are fortunate that 
even when sometimes the Federal funding does not come through 
in Fairfax County, the community is able and the district is 
able to ensure that we have P.E. Teachers. But I do know of 
colleagues that have told me that they are cutting them, you 
know, music programs and the sports, P.E. Programs, and their 
children are not given those opportunities. And that is quite 
upsetting to us all because, as you said, as people of 
character, if we say we are going to do these things for our 
children, then we do need to make sure that we follow through 
on it.
    Ms. Woolsey. Sports is an equalizer. And it shouldn't 
depend on what kind of neighborhood you live in or what school 
you attend whether you have those opportunities. I represent 
Marin and Sonoma County just north of San Francisco. But there 
are poor pockets in my district and the community works very 
hard to try to support them, but they don't always have the 
same opportunities. And that is what I think the Federal 
Government is all about--being the equalizer.
    Dr. Weiss, it looks like you might want to say something.
    Ms. Weiss. I was wondering if I could make a comment about 
the physical education as well.
    In 1996, the Surgeon General identified physical inactivity 
as a top risk factor for cardiovascular and other physical and 
mental diseases. And Centers for Disease Control and Prevention 
just had a 10-year conference to look at what is the research 
on physical activity in public health. So it is--for me, it is 
a real disconnect at a time where physical activity is so 
important for public health, including physical and mental, 
that there has been this 63 percent cut in physical education 
in the schools. And as you can see, The First Tee is also going 
into the schools to try and have an impact there as well.
    But if there are fewer and fewer physical education 
programs, it really does have a negative impact on all kinds of 
outcomes. That just comes from my general background as well as 
my work with The First Tee.
    Ms. Woolsey. Thank you so very much. I am going to go vote, 
Mr. Chairman. Are you?
    Chairman McKeon. Probably not.
    Ms. Woolsey. Do you want to adjourn?
    Chairman McKeon. Well, that means I am going to get to ask 
more questions here.
    Back to fundraising. As cochair of the fund raising, what 
are some of the things you do to raise money for The First Tee?
    Mr. Nicklaus. Well, we have different outings in different 
places. We have different meetings that we go to. We try 
different areas that we go to, trying to raise private funds. 
And to a large degree, we have been reasonably successful. To 
the numbers I think that--Len could give better numbers than I 
can. And if you don't mind, I would appreciate getting that 
support.
    Mr. Stachitas. We have an annual budget of about $15 
million and we raise about 12 of that privately. We turn around 
and we give over a third of that back to our chapters, so I do 
not want you to think we are raising $15 million for 
headquarters. That is not the case at all. But what we have 
found is really when we talk about the First Tee as a youth 
development program, which is how we view ourselves, that that 
opens the interest of many possible funders. Frankly, in our 
early history, we were viewed as a junior golf program and the 
only people interested in that are golfers. Thankfully, there 
are a lot of golfers, but we are more than that.. And we never 
were just a junior golf program.
    So we get a sympathetic hearing in many quarters, I am 
happy to say, when we talk about our life skills program and 
what we do for the children. And, as Jack said in his testimony 
and at the breakfast this morning, that golf is just a vehicle, 
it is not the destination.
    Having said that, to your earlier question, we have 258 
facilities. We could easily have 458 if we had the money to do 
it, but we just do not.
    Chairman McKeon. Generally, manpower or womanpower, people 
power, and finances is the limiting factor probably in any 
venture.
    Mr. Stachitas. Correct.
    Mr. Nicklaus. If I may add just a little bit to that. One 
of the things that a lot of us have done, particularly in my 
case and particularly with some of the funds that I have 
brought in, that the funds came in, are not for administrative; 
they are for kids only and the usage of the kids and the 
teaching.
    Chairman McKeon. You said you give a third back to the 
local groups. They must be raising money on their own, then, if 
they need. So you do more than 15 million for First Tee, if you 
take those, what they raise at a local level.
    Mr. Nicklaus. Yes. Some of it is needed for administration, 
obviously. Some of it, like stuff that I have done and other 
people have done, it totally goes to the kids, which means it 
does not go to administration. It all goes into the teaching 
part.
    Chairman McKeon. Thank you. I am going to go vote.
    Mr. Osborne [presiding]. As you can see, we are a little 
discombobulated here. We apparently have somebody who has a 
motion to rise every 30 minutes, so it is going to be one of 
those day. We have something like 80 amendments pending on this 
appropriations bill and we are going to try to get through 80 
amendments and then have a motion to rise every 30 minutes, so 
it will be a very interesting day.
    I do have a few questions. First of all, I want to commend 
Mr. Nicklaus for being here, and those of you who are 
representing First Tee. My experience in athletics has been 
paralleled by some of the observations that you have, and that 
is that athletics does not automatically build character. 
Athletics reveals character oft times. And unless you are 
fairly intentional about it, unless you have a specific program 
in mind, you may not see the desired results. So we are pleased 
that you have done that.
    And, Ms. Aldredge, I am really impressed with your 
testimony. So I am pleased with all of you being here.
    I really did not come here to discuss Title IX, but I have 
lived it. I used to be a football coach for 36 years, and so I 
thought maybe some of the comments that have been made deserve 
some response. And that is that at Nebraska, we had 22 sports 
when I left in 1997. One supported itself, football; one broke 
even, basketball; and the remaining 20 needed financial support 
and were financed primarily by football. And when Title IX was 
written, there were three tests of compliance. One was 
increased opportunities for the underrepresented sex; in other 
words, were more opportunities continually being added. So many 
programs complied by continually adding women's sports. At 
Nebraska, we added women's rifle, no men's team. We added 
women's bowling. No men's team. And so you do that for a while 
and then you hit the wall financially. You cannot afford to 
continue because there isn't enough money. And Nebraska 
receives no State money, so it was all self-generated.
    So we saw a tremendous increase in women's participation. 
And I applauded that. I was very pleased to see it. And yet at 
one point we reached a limit. So then rules were passed that 
walk-ons could no longer walk on, because they counted. And so 
we would have 150 players walk on, but we could only allow 110 
to come out in the fall. We began to see men's wrestling go 
away, we saw men's baseball, we saw men's track, because if you 
are going to go with proportionality--at one time it was 60/40, 
men to women, and now it is 56 percent women and about 44 
percent male. And if you are going to have a football program, 
you have got a problem with proportionality.
    We were not going to get rid of football because that paid 
for everything else. And so the question is, what do you do? 
Well, you in many cases eliminate men. And that is something 
that we need to look at really hard. I do not think anybody 
wanted to see that. So it is my time and then I will be glad to 
let you talk. So I want to make people aware of that.
    The third test, besides proportionality and additional 
responsibilities, was interest. And that was on the books; that 
was in the law for years and years and years. And it was never 
a matter of a court decision. They would not consider it. And 
so that has been something that has been added. Now, it may be 
the survey, it may be that the questionnaire is not 
appropriate. Maybe there is a better way to determine interest. 
But I think you do see in high school where it is thrown open, 
anybody can go out for anything, you will see more men 
participate than women. You will see more men walk on than 
women. And so we have to recognize that. It is not a one-size-
fits-all.
    So anyway, I just want to make those comments and make sure 
that there was some understanding that there is more at stake 
here than just a survey. It is something that has been ongoing 
for many, many years.
    And so with that, I just want to commend you all for 
coming, and thank you. My main interest in athletics has been 
character development. And I feel that that is what this 
primarily should be about, but I do recognize that there is 
concern about Title IX.
    I do have a question for Ms. Aldredge here, and that would 
have to do with the fact that you have seen substantial 
improvement in graduation rates and behavior, but a lot of the 
academic indicators are doing better since you have done 
something with character education. I wonder if you could flesh 
that out a little bit in terms of dropout rates, grades, and so 
on; things that you could give us in terms of any statistics 
that you feel are important.
    Ms. Aldredge. Well, at the elementary level, fortunately, 
we do not have a lot of students dropping out. The attendance 
rates have improved greatly. Our students are at school 95 
percent of the school year, on average. Our scores, we just 
recently took our writing SOL tests, and 95 percent of our 
children that took the test passed the SOLs this year.
    We have had an increase in grades as far as pretty much, I 
would say, in Fairfax County. We also have a citizenship 
section on our report card with more caveats and things. And, 
on average, most of our students receive either outstanding or 
good in those indicators as well. But as I said, 97 percent of 
our children have never had an office referral. And we have a 
school of about 550 children. So we have been fortunate that we 
have been able to work with the children so that the majority 
of them actually never come into the office because of a 
behavior problem. If there are minor issues, they have been 
able to have been handled in the classroom.
    Mr. Osborne. Well, thank you. And I think there is no 
question that behavior is critical in terms of academic 
performance. So I think what we are doing is probably more 
important than anything we can do, maybe even through No Child 
Left Behind. Because if thelearning environment isn't there, 
nobody is going to learn.
    I have used my time up, and so I would like to recognize 
Mr. Kildee at this time. He is the quickest on the Democrat 
side. He was able to get over there and vote and get back. So I 
recognize him at this time.
    Mr. Kildee. I am a track star, Mr. Chairman. Thank you, Ms. 
Hogshead-Makar, for all you have done. As the father of sons 
and daughters, and a grandfather of grandsons and 
granddaughters, I am very, very grateful for your role in 
making Title IX work. It was passed the year that my daughter 
was born and it has transformed her life a great deal. She 
attended school in Fairfax County, and we have very much 
appreciated the active role that Fairfax County schools play 
out there.
    If everyone who benefited in Title 1 really turned into as 
great an advocate as you, it would really be a lot better. It 
is a great program. Patsy Mink used to sit down from me, and we 
all loved Patsy Mink. She was such a great advocate for Title 
IX.
    As your testimony points out, equitable participation in 
athletics has had a profound effect upon the lives of women. 
But recently the administration's policy clarification really 
undermines the intent and value of Title IX.
    Ms. Hogshead-Makar. Yes.
    Mr. Kildee. Opting in puts a burden on you. In effect, what 
the administration is doing is having you opt in; and, to my 
mind, there is a certain unfairness requiring an opting in. And 
143 of us have written directly to the President of the United 
States, not one of his Cabinet officials, not one of his 
subalterns, we have written to the President of the United 
States. That was a year ago, and he has not yet responded. It 
must have got lost in the mail; 143 signed it.
    But can you talk about the negative aspect of requiring a 
female to have to opt in to a program, really, by this method 
for which the administration is working?
    Ms. Hogshead-Makar. Sure. In addition to my testimony, men 
never have to prove that they are interested in sports; we just 
assume they are. We hire the coaches. We build the facilities, 
and we provide them with many opportunities to play sports. If 
you do the same thing for women, the same thing happens. If you 
build it, they will come.
    My own personal experience actually sort of mirrors this. 
As I said in the beginning, I am 44 years old and right when I 
went to college in 1980 was right when the effects of Title IX 
were just starting to be seen. It was passed in 1972. The 
regulations came out in 1975, saying here is what athletic 
departments have to do. So it was right around 1978, 1979; 
then, all of a sudden, bang, there were college scholarships 
available for women. So people who had my credentials, that 
were world champions or national recordholder, that were just 2 
years older, did not have any scholarship activities, whereas I 
literally could have gone almost anyplace I wanted to. Just 
almost overnight, lots and lots of opportunities opened up.
    When I was in high school I said in a newspaper interview, 
I said, Don't women usually quit right around the age in their 
senior year in high school? I just thought physically women 
could not do anymore. That that was really it. It was because 
of Title IX, having these scholarship opportunities, having 
teams that were available at all for women in athletics, that 
suddenly the whole world opened up.
    Fast forward now to 1984. At the Olympics I tied for the 
Gold Medal with Carrie Steinseifer who was only 16 years old. 
And Carrie--we had a lot of endorsement opportunities. We 
turned them all down because Carrie assumed that, of course, 
her athletic career was going to be that long, that she was 
going to swim in college, and that she was getting a full ride. 
The thinking just changed overnight.
    When I was back in high school, if you had said that I had 
to fill out a survey and say whether or not I was interested in 
playing sports--first I was given the opportunity and then I 
developed the interest to be able to go and play in college. 
The cart did not come before the horse. I think it will be a 
very unusual woman who will go to college that does not offer 
that sport, wanting to play that sport, and then sort of do 
everything that it is going to take. My goodness, the legal 
hurdle these women are going to have to be able to actually 
create a team now is going to be almost insurmountable with 
this new additional clarification.
    Mr. Kildee. I thank you personally and I want to thank you 
also on behalf of Patsy Mink, because this is so dear to her 
heart. Thank you for what you are doing.
    Mr. Osborne. Thank you Mr. Kildee. Mr. Kind.
    Mr. Kind. Thank you very much, Coach Osborne. I want to 
thank all the panelists for your testimony here today and on 
this very important topic. Mr. Nicklaus, I want to especially 
thank you for taking time out of your busy schedule for being 
with us this morning for the breakfast and for your support for 
youth programs generally, but also the First Tee program. It is 
an incredibly successful program, still very much in its 
infancy, and that was demonstrated this morning with the two 
students who were there to address a room full of Members of 
Congress and Senators, and it was very important. Mr. Payton 
was there and he addressed us this morning. He did an 
outstanding job. I see Miss Nesbith had to take off right now, 
but you both did an excellent job and I commend you because 
that is some heady stuff, walking into the United States 
Capitol, maybe for the first time, and having to address a full 
room of Members of the House of Representatives and some 
Senators in the audience, talking about the First Tee and the 
impact it made on your lives. It was very very important.
    Now, as the father of two little boys myself, I am trying 
to introduce them into a life of athletics as I was able to 
grow up under. There is no greater joy than to be able to share 
that experience with your own children and teach them the life 
lessons and the value system that they hopefully will develop. 
That is one of the things that is impressive about the First 
Tee program, the life skills education program that is 
receiving so much emphasis that you guys talked so eloquently 
about this morning at the breakfast. It is not just a game, but 
it is character formation and value formation and good 
mentoring and role models in young people's lives, which I 
think is the key to later success but also academic 
achievement.
    One of the things that we have coming up in Congress in the 
next session will be reauthorization of No Child Left Behind. 
It was a bill that was passed in the first year of the Bush 
administration. I think we have a lot of work in order to 
address some of the deficiencies now that we have seen it play 
out. And I see the principal on the panel is kind of nodding 
her head in agreement. We are going to be looking for feedback 
on what changes we have to effectuate with reauthorization.
    On of the deficiencies that really jumped out at me, 
though, and I hope we get some support on the committee, is the 
fact that physical education is not considered a core academic 
subject under No Child Left Behind. I think it is important 
that we go back and address that again, especially looking at 
the statistics with childhood obesity and type II juvenile 
diabetes and the role that athletics help in shaping good 
bodies, but, more importantly, good minds for learning 
opportunities. I think we have to go back and address that.
    And, Dr. Weiss, perhaps it will be an opportunity for us to 
follow up with you and get some input and advice, given a lot 
of work that you have devoted on this very topic. We are 
looking for feedback and what we can do to hopefully shape a 
real good program for that through the reauthorization process.
    And I really do not have any questions, other than maybe if 
Jack has advice on a flying right elbow that I have been 
battling in my pretty pathetic golf career.
    Mr. Nicklaus. That is my speciality, a flying right elbow.
    Mr. Kind. I have read your books. I hopefully have picked 
up some valuable points and tips.
    Thank you all for your testimony here today, for your 
support for these important programs and your testimony about 
youth development in general.
    I apologize for the erratic schedule that we have. There 
are some crazy things going on on the House floor today. Mr. 
Chairman, thank you for convening this hearing today. We will 
look forward to working with you as the reauthorization of No 
Child Left Behind approaches this committee. Thank you very 
much.
    Chairman McKeon. Thank you. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. It is nice not to 
watch you on TV, Mr. Nicklaus. And I want to thank you--I am 
from Minnesota--for all the times in the winter I do not have 
to look at snow outside and I look at beautiful, beautiful 
weather. And I think First Tee has a role to play, but I am 
concerned in the way that some of the funds are being 
appropriated; $2 million came out of the COPS program and 
things like that.
    So if this is important enough to fund, we need to find a 
way in which it is funded up front, having hearings on its 
funding, and then fund it that way, rather than going to 
conference committee and it is coming out of the character 
education budget for the regular schools and things like that.
    I want to just take this opportunity to kind of combine 
Title IX and golf together. In 1971 and 1972--for those of you 
have who might try to do the math, that makes me about 52, 53. 
In 1971 Muriell Foss, who was my phy ed teacher, came up and 
tapped me on the shoulder and she said, Would you like to learn 
how to play golf? I looked at her and I said, Get out of here, 
there is no way, my parents do not play, I do not play, we 
literally do not have the money for green fees, whatever. She 
said, We are putting together a group of girls who participate 
in GAA, which is what we had before we had Title IX, and we 
thought it might be an opportunity for some young girls in 
south St. Paul to learn how to play golf.
    Muriell had a passion for it. We heard her talk about it 
all the time in phy ed.
    In 1972, my senior year, I got to play again in the fall, 
but my access was through Title IX. And so I think that there 
is room and opportunities for both programs. But one of the 
reasons that I am so passionate about Title IX, sitting here 
today--and I barely golf at all--but the opportunity it gave me 
to experience a sport, an opportunity. And I think there is a 
lot of character to playing golf, a lot of manners, a lot of 
respect that goes into it. And so it does help develop 
character.
    But when I had a town hall meeting on and I sent a letter 
to the President, who forwarded my letter to the Secretary of 
Education, on the clarification on the way that they were going 
to be assessing the interest in high school and college sports 
for women, I got back a letter that was very unsatisfying. My 
town hall meeting--and we had tennis coaches there, we had golf 
coaches from women's athletics, both in high school and 
college, and they all said, including the young women athletes, 
this was like the worst way to interact with people to get any 
response back.
    And so it was because of opportunities that First Tee and 
Title IX present that I, Mr. McKeon, I really would like to see 
us have a discussion that did not become polarized on party 
lines but really on how do we continue to move our sons and our 
daughters together forward.
    So I would like us to look at the way in which First Tee is 
funded. If it is important enough to fund alone--and from the 
testimony here it should be--it should not be coming out of the 
expense of the COPS programs which help provide safe 
neighborhoods for students and at the expense of character 
development in our schools.
    We would look forward to having a hearing in which we can 
move forward with Title IX and learn more about programs like 
First Tee. Thank you.
    Chairman McKeon. I would love to have discussions that do 
not become polarized by party. And I think that would be a good 
step forward for this committee and all committees here on the 
floor. I think we have made lots of progress. Those of you who 
have been here, Mr. Kildee has been here a hundred years, he 
has seen lots of change, lots of progress. And I think we have 
gotten rid of a lot of personal rancor that used to permeate 
this committee, and we will continue hopefully to make progress 
in that regard.
    The COPS program. One of the problems with being here for a 
while is you start remembering things that happened back 
awhile. And I remember when we first passed the COPS program, 
that was just going to be a jump-start program, and I remember 
the Los Angeles mayor, Mayor Riordan at the time, calling me 
and saying, Look, we just need a little money to get this 
started and if you can just help us get it started for a couple 
of years, then we will carry it on ourselves. I think that was 
about 10 or 12 years ago.
    And it is just impossible to get rid of programs here once 
they start. They develop a constituency and there is further 
demand for the money. And that was when it was originally 
passed, was to be a temporary jump-start program that is 
continuing to this day.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Thank you very much 
for your testimony. I appreciate it. I think any program that 
helps improve the character of kids is worthwhile, but I do 
think you made a good choice in golf. And I used to be golfer. 
I cannot claim to anymore, because I am down to one game a year 
now with this job. There is just no time. And it is irritating 
when I go back to Michigan, people say, Well, have you played 
Burning Tree yet? And I say, I have not played one game of golf 
in Washington. Our schedules are too hectic.
    But it is a game that builds character and I first realized 
that when I got into it. And what struck me, we had a recent 
President who shall remain unnamed, and when I read in the 
paper that he cheated on his golf score, I knew there was 
something fatally flawed about that President. And 
unfortunately I was right. A fine fellow in every other way, 
very capable, but he cheated on his golf scores and it showed 
in other things. I have learned that I will never play twice 
with someone who cheats on his golf score, and I think most 
golfers feel that way, so it is a very good place to start and 
it does build a lot of character in a lot of different ways.
    Ms. Aldredge, I was very impressed with your testimony and 
your statements about what you have done in the school. I have 
no questions on that. But I was just very impressed with your 
recital of what you have accomplished, and that is what we need 
in every school in America. And I wanted to pay tribute to you 
for the work that you have done and the professional attitude 
that you display and the way you handled it. So thank you.
    I do not have a question, Mr. Chairman. I could certainly 
get into Title IX. I happen to think Title IX was a good thing. 
But as scientist I have a theorum about the laws we pass; that 
every law we pass creates a need for two additional laws. What 
we have done in Title IX was good but not perfect. And I think 
it is perfectly legitimate for this committee to look at ways 
we can improve Title IX and its effect on the schools and 
especially the effect on children. But I think it is marvelous.
    There are two occasions in my life where I was convinced 
that I was not what I professed to be. I always professed that 
I was very open and tolerant about the other sex, and Title IX 
proved me wrong on that because I never thought women could 
play basketball very well. And every time I watch a woman's 
basketball game on TV I say, Shame on you, Ehlers, why didn't 
you see this ahead of time? They are really outstanding, and 
that is true of every sport.
    So Title IX helped change my personality in that regard. 
But as I say, the principle is fine. The implementation has not 
always worked well. I think that is something we can work on. I 
think the Chairman feels the same way.
    Thank you very much for being here. I have no specific 
questions. I am just very pleased with your testimony and what 
you are doing for the kids of this country. Please keep it up. 
Thank you, especially, Mr. Nicklaus, for lending your name and 
your time to such a worthy cause. We have got to get our kids 
on the right track in this country and that is the only way.
    Chairman McKeon. Burning Tree. Great, by the way.
    Mr. Ehlers. You either have more time or more money than I 
do.
    Chairman McKeon. You make the time, you smell the roses.
    Thank you all for being here today. Thank you for what you 
are doing. I hope this has been as enjoyable for you as it has 
been for me. I am sorry we have had these interruptions. That 
is kind of the way things happen around here, but it drew more 
members away. And they did not get to all ask their questions, 
but most of them got to hear your testimony and that was really 
good. Thank you very much. This hearing is adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]
    [The prepared statement of Mr. Norwood follows:]

    Prepared Statement of Hon. Charlie Norwood, a Representative in 
                   Congress From the State of Georgia

    Thank you, Mr. Chairman. I think we can all agree that character 
education is an important part of the growth and development of our 
young people. I realize that this development can come through a number 
of mediums and organizations. When I was a young man, I was fortunate 
enough to be a boy scout and attend various camps, including the Athens 
Y. The same values I learned through those activities are largely 
available through the World Golf Foundation's The First Tee.
    I am proud that the 9th District of Georgia has welcomed the First 
Tee into our community. The program is made possible because of the 
sponsorship of the Augusta National Golf Club which continues to 
sponsor The First Tee both nationally and locally. In Augusta, The 
First Tee facility on Damascus Road is making a significant 
contribution to the CSRA, and I am sure that will continue. For 
starters, the program reaches 4,500 students annually in public schools 
in the area and teaches the basic etiquette of golf.
    However the bread and butter of the program began with the 694 
initial members that paid $25 to attend. Now, if a student said they 
had a desire to participate and did not have the funds, as long as 
there was space that student would not be turned down. That shows those 
students that as long as they have a desire to learn and improve--in 
golf and more importantly in life--then nothing should stand in their 
way.
    There are also camps every summer where The First Tee showcases the 
public-private partnership model that the Education and Workforce 
Committee has embraced. The program partners with twenty other 
committee organizations, and the children enrolled in camp can play as 
many times during the summer as they want.
    Now, you might ask, ``How does golf help our young people?'' Though 
I am not a golfer myself, I respect the values The First Tee 
instructors impart on our youth. Participants are taught 
responsibility, courtesy, decision making, goal setting, the importance 
of a positive attitude, and respect. Those are all values and assets 
that we cannot stress enough to our young people.
    If a young person in Augusta grows up to be the next Larry Mize, 
Charles Howell, III, or Vaughn Taylor, then the First Tee will have 
created a great golfer. But more importantly Mr. Chairman, the program 
seeks to create better citizens. I know that is a goal we all embrace. 
Thank you, Mr. Chairman, and I yield back.

                                 <all>

</pre></body></html>
